<html>
<title> - TAKING MEASURE OF COUNTERMEASURES, PART 3: PROTECTING THE PROTECTORS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  TAKING MEASURE OF COUNTERMEASURES, 
                   PART 3: PROTECTING THE PROTECTORS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2012

                               __________

                           Serial No. 112-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
77-377                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Scott Rigell, Virginia               Laura Richardson, California
Tom Marino, Pennsylvania, Vice       Hansen Clarke, Michigan
    Chair                            Kathleen C. Hochul, New York
Blake Farenthold, Texas              Bennie G. Thompson, Mississippi 
Robert L. Turner, New York               (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
               Vacant, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5
The Honorable Robert L. Turner, a Representative in Congress From 
  the State of New York:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Dr. James D. Polk, DO, MMM, Principal Deputy Assistant Secretary, 
  Office of Health Affairs, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Edward J. Gabriel, MPA, EMT/P, CEM, CBCP, Principal Deputy 
  Assistant Secretary, Preparedness and Response, U.S. Department 
  of Health and Human Services:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Chief Al H. Gillespie, EFO, CFO, Mifiree, North Las Vegas Fire 
  Department, and President and Chairman of the Board, 
  International Association of Fire Chiefs:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. Bruce Lockwood, Deputy Director, Emergency Management, New 
  Hartford, Connecticut, and Second Vice President, USA Council, 
  International Association of Emergency Managers:
  Oral Statement.................................................    28
  Prepared Statement.............................................    31
Sheriff Chris Nocco, Pasco County Sheriff's Office:
  Oral Statement.................................................    33
  Prepared Statement.............................................    34
Mr. Manuel L. Peralta Jr., Director of Safety and Health, 
  National Association of Letter Carriers:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                             FOR THE RECORD

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of the National Sheriffs' Association................     2

                                APPENDIX

Questions Submitted by Chairman Gus M. Bilirakis for James D. 
  Polk...........................................................    49
Questions Submitted by Chairman Gus M. Bilirakis for Edward J. 
  Gabriel........................................................    50
Questions Submitted by Ranking Member Laura Richardson for Edward 
  J. Gabriel.....................................................    50


  TAKING MEASURE OF COUNTERMEASURES, PART 3: PROTECTING THE PROTECTORS

                              ----------                              


                        Tuesday, April 17, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Turner, and Richardson.
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
efforts to ensure the protection of emergency response 
providers in the event of a chemical, biological, radiological, 
or nuclear attack.
    I now recognize myself for an opening statement.
    This hearing is the third in a series held by the 
subcommittee on the vital issue of medical countermeasures. The 
subcommittee has received testimony on challenges in the 
research, development, and acquisition of medical 
countermeasures and all plans and strategies to distribute and 
dispense diagnostics, medications, and other life-saving 
equipment.
    Today we continue this discussion with a focus on how we 
protect those who protect the public in the event of a 
chemical, biological, radiological, or nuclear attack or 
emergency.
    As noted by the WMD commission, the threat of WMD terrorism 
remains. The better we prepare, the more we reduce the risk. I 
know everyone agrees. Medical countermeasures are but one 
component that allows us to do so, and yet they are such a 
critical piece of this that they deserve special attention as 
far as I am concerned. It is a critical piece of the puzzle.
    As we learned at our last hearing, there are a number of 
dispensing methods under consideration. We have two 
distinguished panels of witnesses here today to help us further 
assess these plans and strategies at the Federal, State, and 
local levels and to discuss how best to protect emergency 
response providers and their families through mechanisms such 
as voluntary pre-event vaccination and the predeployment of med 
kits.
    The provision of such assets to targeted populations is not 
without precedent. The United States Postal Service has a 
program well underway in several cities to deliver medical 
supplies to the public in the event of a biological emergency. 
As a condition of participation, the Postal Service required 
that the letter carriers themselves and their families be 
provided with antibiotic med kits in advance in order to ensure 
their own protection. Kits and a program were then developed 
with the FDA backing, of course, to achieve this.
    Yet the law enforcement members that will escort the letter 
carriers from home to home do not yet have the same option. The 
assistant secretary for preparedness and response at HHS is 
working with the FDA to rectify this, and I look forward to 
hearing from Mr. Gabriel on the progress toward this important 
issue.
    Another priority that we have heard from the first 
responder community is its desire for access to anthrax 
vaccine. Given the millions of doses in the National stockpile 
that annually expire and are then discarded, it would seem 
entirely reasonable to make these supplies available to first 
responders prior to their expiration. That would benefit, of 
course, the responders who respond frequently to white powder 
incidents that may some day turn out to be the real thing, and 
it would certainly work for those of us who do not want to see 
Federal resources wasted.
    I look forward to hearing from Dr. Polk and from our second 
panel how the pilot is proceeding and what needs to happen to 
make it successful. I also think that we should look beyond the 
anthrax threat and have a frank discussion about what other 
measures, if any, should be taken with regard to other 
biological, chemical, and radiological threats. It is in all of 
our interests to ensure that our protectors are protected and 
that their families are protected and that they are able to 
come to work and do their jobs when duty calls. That will keep 
us all safer and more secure.
    Our previous hearings in this series have highlighted the 
challenges we face in developing countermeasures and getting 
them to the people who need them. First and foremost in our 
minds should be our first responders, and I look forward to 
discussing this with all of you today, how we can make this 
endeavor a success.
    Before I recognize our Ranking Member, I ask unanimous 
consent to enter a statement from the National Sheriffs' 
Association into the record. Without objection, so ordered.
    [The information follows:]
            Statement of the National Sheriffs' Association
                             April 11, 2012
    Dear Chairman Bilirakis and Ranking Member Richardson: I would like 
to thank you for allowing the National Sheriffs' Association (NSA) to 
submit a statement for the record for the House Subcommittee on 
Emergency Preparedness, Response, and Communications Hearing on 
``Taking Measure of Countermeasures (Part 3): Protecting the 
Protectors,'' held on April 17, 2012.
    The National Sheriffs' Association (NSA) is one of the largest 
associations of law enforcement professionals in the United States, 
representing more than 3,000 elected sheriffs across the Nation, and a 
total membership of more than 20,000. NSA is a non-profit organization 
dedicated to raising the level of professionalism among sheriffs, their 
deputies, and others in the field of criminal justice and public 
safety.
    The NSA and its members are pleased that your committee continues 
to place a priority on protecting emergency services personnel. By 
protecting the protectors, we believe the Nation is and will remain 
more resilient in the face of natural catastrophes or intentional 
attacks on our communities. Further, we note that, in the case of a 
bioterrorism incident such as a wide-area anthrax attack, the 
responders' household members will need protection as well. Research 
shows the inclusion of the protection of family members as a key 
component in the willingness of responders to report for duty in 
biological incidents. As responders put their lives on the line for 
their community, they deserve to have peace of mind from knowing that 
protective antibiotics are immediately available to their household 
members as well as themselves.
    Since the May 12, 2011 hearing of your subcommittee, we can report 
or cite little progress toward the goal of an adequately protected 
workforce. The priorities highlighted in the testimony provided by 
Chief Tan on behalf of the Emergency Services Coalition for Medical 
Preparedness (NSA is a founding member) remains unaddressed, and is as 
germane today as 11 months ago.
    Emergency services personnel will be among the first exposed in an 
event, and will have the greatest need for timely access to appropriate 
medical countermeasures. The time is right to provide emergency 
services personnel caches of pre-positioned personal and institutional 
medical countermeasures. The existing processes developed since 2004 to 
distribute med kits to postal workers could be extended to include the 
protection of our fire service, law enforcement, emergency medical 
services, public works, and other components of our emergency services 
sector critical infrastructure.
    We augment this statement only to make explicit that the 
prepositioned med kits in the homes and workplaces of postal workers 
participating in the National Postal Model cover their entire 
households. Thus, knowing that their household members already have 
protective antibiotics in hand if they should be needed, the postal 
workers are poised to deliver medical countermeasures to every 
residence in targeted areas in 1 day as soon as supplies arrive from 
the Strategic National Stockpile.
    On March 27 this year, your subcommittee convened to hear the 
budget request from the DHS Office of Health Affairs (OHA). Assistant 
Secretary Garza described the OHA's Medical Countermeasures (MCM) 
Initiative. This initiative provides 100% of DHS personnel with 
immediate access to life-saving antibiotic medications in the event of 
a biological attack to ensure front-line operations can perform their 
duty to save American lives. Their proposed budget request was to 
extend this initiative to cover an additional 350 field locations.
    On April 2, 2012 the Food and Drug Administration (FDA) held an 
advisory panel on the issue of defining a pathway for FDA approval of 
med kits. No first responder agencies were invited to testify, despite 
our continued interest in this issue and well-known policy position. In 
contrast, numerous public health and medical associations were invited 
to provide testimony, despite having no stated policy position on these 
issues.
    The emergency preparedness system in this country is essentially 
local, with mutual aid support from State and Federal authorities. To 
leave our local emergency services personnel and their families 
unprotected is to invite additional difficulties in responding to 
large-scale biological events. In light of the proposed DHS 
initiatives, it creates a disparity of the ``haves'' and ``have-nots.'' 
As you know, DHS will not be the first responders to communities in 
need. The true responders will be the sheriffs and their deputies in 
communities across the country that the National Sheriffs' Association 
is proud to represent. We fully support what Dr. Garza advocates for 
DHS and desire to have those same protections given to local 
responders, including the deputies and their families. These 
individuals will be the first on the scene, the first in danger, and 
the first to make the decision to leave their families and stand in 
harm's way. They must be minimally provided the same opportunity for 
protection as DHS employees.
    We support the November 2011 Institute of Medicine (IOM) report 
that recommends against issuing med kits to all U.S. households in 
favor of an approach of issuing med kits to specific populations, where 
there is sufficient education, control, and programmatic oversight. The 
emergency services agencies and personnel are that specific population; 
we are entrusted by our citizenry to carry guns, work with hazardous 
materials in life-threatening situations, and enter areas unsure of the 
potential for harm. We are sworn to uphold the law and if necessary 
give our lives performing that duty, but currently cannot be entrusted 
to have a supply of potentially life-saving antibiotics on hand for 
ourselves and our other household members to permit us to respond when 
we will be most needed.
    The NSA urges you to support the creation of a commercial med kit 
to be used by the first responder community and their households and 
continue to support the provision of a voluntary anthrax immunization 
program for all emergency services personnel.
    Thank you for your consideration of this matter.

    Mr. Bilirakis. I now recognize the Ranking Member, Ms. 
Richardson from California, for any statement that she may want 
to make.
    Thank you.
    Ms. Richardson. Good afternoon.
    I first want to start off by thanking our witnesses for 
being here today and for your service on behalf of this 
country, especially our first responders in our second panel.
    We thank you as well.
    I am particularly encouraged with Mr. Gabriel, with his 
background of being a first responder. I think the 
administration did a great job of getting good people in the 
right positions. So we look forward to working with you.
    Traditionally, when we think of first responders, we tend 
to think of public safety, police, and fire. They are always 
the ones that are there. But today we are expanding that 
definition and I think getting a sense of the other individuals 
who support our first responders on a regular basis.
    Since 2004, the United States Postal Service has worked 
with the Department of Homeland Security and the Department of 
Health and Human Services to develop a system to augment the 
point of distribution network to facilitate a rapid 
distribution of countermeasures after a biological attack.
    In 2005, the Centers for Disease Control recognized that if 
a major biological event were to overwhelm local response, 
invoking our letter carriers in the process would be critical 
to saving lives. The critical role the United States Postal 
Service can play in distributing medical countermeasures was 
recognized by President Obama in Executive Order 13527, which 
directed the Federal Government to develop a National U.S. 
Postal Service medical countermeasures dispensing model to 
respond to a large-scale biological attack. Today the resulting 
National postal model is in operation in St. Paul-Minneapolis, 
and we look forward to hearing about your success as well as 
the new program to be launched in Louisville, Kentucky.
    The program's success can be attributed to the patriotism 
of postal workers and the careful planning on behalf of HHS, 
DHS, and the Postal Service and many other Federal, State, and 
local partners who have worked together to ensure that the 
postal employees who participated in this program and their 
families have access to prepositioned medical countermeasures.
    Now when we look at this issue in these very tough fiscal 
times, I find it ironic that we are having a discussion about 
including other folks in our first responder model, 
particularly our letter carriers and postal workers, when we 
are just over on the Senate side having a discussion about 
whether we are going to maintain 6 days a week service and keep 
postal offices open. So it seems kind of ironic, here we are 
talking about giving more responsibility and utilizing a 
resource that we know is needed, yet in the same vein, we are 
talking about cutting it and could very well eliminate our 
ability to use this program.
    Therefore, I urge in the testimony a real frank discussion 
about the potential impacts of this program and whether, if 
some of the proposed changes are brought to fruition, do we 
really think that they would be met in light of some of the 
potential cuts that are being proposed? I question if, in fact, 
that can happen.
    Further, some of my concerns are, is that there has been a 
delay in issuing the guidance, and we look forward to getting 
some feedback on when that can be expected.
    Then finally, with this committee, I am hoping that we will 
in fact bring to markup H.R. 2356, which was pulled, the WMD 
Prevention and Preparedness Act of 2011, which would have a 
great impact on medical countermeasures for first responders.
    With that, I thank all of you, both panels, Nos. 1 and 2, 
for your willingness to testify and the information that you 
will share with us to make better decisions on behalf of the 
American public.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Bilirakis. Thank you.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Member Thompson and Mr. Turner 
follow:]
             Statement of Ranking Member Bennie G. Thompson
                             April 17, 2012
    Good afternoon. I want to thank Chairman Bilirakis for holding this 
hearing.
    Adequately trained and equipped first responders are the foundation 
of our response plans.
    We cannot afford to miss opportunities to provide first responders 
the tools they need to protect the public.
    For 26 years, I served as a volunteer firefighter.
    When we were called to action, we responded.
    When first responders across this country are called to action, 
they know that inaction or delay can cost lives. They have to act.
    DHS needs to adopt a first responder mindset.
    In 2008, the Homeland Security Council directed DHS to develop 
guidance on the appropriate measures for first responders to take 
following an anthrax attack.
    Draft guidance was released in 2009. The final guidance has yet to 
be issued.
    Earlier this year, the full committee was scheduled to mark up H.R. 
2356, the ``WMD Prevention and Preparedness Act of 2011.''
    That legislation, introduced by a former Member of this committee, 
Congressman Pascrell, would have directed the Department of Health and 
Human Services to make surplus vaccines and countermeasures with a 
short shelf-life available to first responders.
    The same legislation would have reauthorized the Metropolitan 
Medical Response System, which permits local governments to use grant 
funding to buy countermeasures to protect first responders and their 
families.
    Unfortunately, the Majority cancelled mark-up of this vital 
legislation.
    I hope that today's hearing can be used to gain additional 
information on the importance of this legislation and help this 
committee move toward full committee consideration of H.R. 2356.
    I look forward to hearing from the witnesses and I yield back the 
balance of my time.
                                 ______
                                 
                   Statement of Hon. Robert L. Turner
                             April 17, 2012
    Chairman Bilirakis, Ranking Member Richardson, and fellow Members. 
I would like to welcome the witnesses appearing before us this 
afternoon.
    To paraphrase the Roman poet Juvenal, we are gathered here today to 
ask ``Who protects the protectors?'' First responders put their lives 
on the line each day in the service of their fellow citizens. If there 
is another attack on the U.S. homeland, they will be the first on the 
scene and the ones most at risk.
    We know that the more we prepare, the lower their risk will be. 
Medical countermeasures are an important element of our overall 
emergency preparedness--for we cannot ask men and women to stand in 
harm's way without taking the proper precautions to ensure their 
safety.
    We must also recognize that first responders perform best when they 
know their families are safe. The pre-staging of medical 
countermeasures in the homes of first responders for use by all family 
members will ensure their peace of mind and allow them to turn their 
attention to the pressing tasks at hand. I am heartened by evidence 
that supplies can be safely stored in homes without risk of tampering 
or improper use. Studies demonstrating a 97% compliance rate evidence 
the dedication and training of these professionals.
    Voluntary anthrax immunizations from expiring stockpiles of the 
Strategic National Stockpile are another innovative use of Government 
resources. The distribution of vaccines to first responders 6 months 
before expiration avoids waste and maximizes the number of emergency 
workers who are pre-immunized.
    Finally, it is important to look beyond the anthrax threat to other 
biological, chemical, and nuclear dangers. It is not enough to develop 
countermeasures--for we must also ensure their proper and effective 
distribution. The delivery of emergency medicine via the U.S. Postal 
Service (the ``Postal Model'') does show promise. There are, however, 
questions that must be addressed before we can be entirely satisfied 
with this solution.
    I look forward to hearing from the witnesses today, and yield back 
the balance of my time.

    Mr. Bilirakis. I am pleased to welcome now our first panel 
of witnesses. Our first witness is Dr. J.D. Polk. Dr. Polk is 
the principal deputy assistant secretary for health affairs and 
deputy chief medical officer of the Department of Homeland 
Security, a position he has held since November 2011.
    Prior to joining DHS, Dr. Polk served as the deputy chief 
medical officer and chief of space medicine at NASA's Johnson 
Space Center. He also served as assistant professor at the 
Departments of Preventive Medicine and Emergency Medicine at 
the University of Texas Medical Branch. Dr. Polk received his 
degree in osteopathic medicine from A.T. Still University in 
Clarksville, Missouri. He holds a masters of science in space 
studies with a concentration in human factors from the American 
Medical Military University and a masters in medical management 
from Southern California's Marshall School of Business.
    Following Dr. Polk, we will receive testimony from Edward 
Gabriel. Mr. Gabriel is the principal deputy assistant 
secretary for preparedness and response at the Department of 
Health and Human Services.
    Prior to joining ASPR, Mr. Gabriel served as the director 
of global crisis management and business continuity for the 
Walt Disney Company. Mr. Gabriel previously served as a 
paramedic in the New York City Fire Department's Emergency 
Medical Service and was assigned to the New York City Office of 
Emergency Management as a deputy commissioner for planning and 
preparedness.
    Mr. Gabriel earned his bachelor's degree from the College 
of New Rochelle and his masters in public administration from 
Rutgers University.
    Welcome, sir.
    Your entire written statements will be entered into the 
record. I ask that you each summarize your testimony for 5 
minutes.
    We will start with Dr. Polk.
    Thank you. You are recognized, Doctor.

STATEMENT OF JAMES D. POLK, DO, MMM, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY, OFFICE OF HEALTH AFFAIRS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Dr. Polk. Thank you Chairman Bilirakis, Ranking Member 
Richardson, Congressman Turner, and distinguished Members of 
the committee. It is an honor to testify before you today and 
alongside my colleague from ASPR, Mr. Ed Gabriel, on the 
Department of Homeland Security's efforts regarding medical 
countermeasures for first responders.
    These issues are particularly important to both Mr. Gabriel 
and myself as we have started out our careers as first 
responders. This committee is very familiar with the Office of 
Health Affairs' role and responsibilities. OHA provides health 
and medical expertise in support of the DHS mission to prepare 
for, respond to, and recover from all threats. We are the 
principal medical and health authority for DHS and the 
legislative coordinator for biodefense within the Department.
    Today I will discuss a few medical countermeasures and 
first responder initiatives currently under way by the 
Department and in concert with our interagency partners. The 
unremitting threat of an anthrax attack using biological agents 
requires that we continue to remain vigilant. A wide-area 
attack using aerosolized Bacillus anthracis is one of the most 
serious biological threats facing the United States. A 
successful anthrax attack could potentially encompass hundreds 
of square miles, expose hundreds of thousands of individuals, 
cause illness, death, fear, societal disruption, and 
significant economic damage.
    If untreated, the disease is nearly 100 percent fatal. 
Those exposed must receive life-saving medical countermeasures 
as soon as possible following their exposure. There is no 
indication of a specific credible anthrax attack against the 
United States at this time. However, due to the risks and 
consequences associated with such an event, it is a priority of 
the Federal Government and DHS to ensure the readiness of the 
Nation's first responders and Federal, State, local, Tribal, 
and territorial governments to enhance their capacity to 
respond to a biological attack.
    The mission of DHS includes enhancing response capabilities 
at the State and local levels. Communities stand to benefit if 
they have prevaccinated responders able to deploy immediately. 
DHS, in partnership with CDC, is codeveloping a concept for a 
pilot project that would provide expiring anthrax vaccines to 
responders, as you mentioned, as they would have an increased 
chance of exposure reflective to their response function. 
Responders would decide on an individual basis whether or not 
to be vaccinated.
    Understanding that all events are local, we work directly 
with State and local public health emergency response, law 
enforcement, emergency management, and emergency medical 
services leaders to develop response capabilities for health 
security threats, including biological threats. For example, 
OHA together with FEMA conducted a series of anthrax response 
exercises at each of the 10 FEMA regions designed to help 
coordinate roles, responsibilities, and critical response 
actions following a wide-area anthrax attack.
    In 2009, OHA requested comments from the public and 
interested stakeholders on draft guidance developed through an 
interagency process for appropriate protective measures for 
responders in the immediate post-attack environment of an 
aerosolized anthrax attack. Since then both DHS and HHS' Office 
of the Assistant Secretary of Preparedness and Response have 
worked diligently together to develop consensus guidance. The 
guidance will reflect the most current understanding and 
evidence-based medicine for protective countermeasures after a 
wide-area anthrax attack.
    Finally, all of these efforts combined with our Biowatch 
and our National Biosurveillance Integration Center, or NBIC, 
form a contiguous biosurveillance and situational awareness 
system that serves to enhance the ability of local responders 
to be alerted to and respond quickly to biological attacks. DHS 
has developed and will continue to refine integrated 
multidisciplinary detection and biosurveillance capabilities to 
provide the Federal Government and State and local partners 
with the tools necessary to respond to unfolding biological 
events.
    In conclusion, thank you again for the opportunity to 
testify today. The Department of Homeland Security values the 
work of the Nation's first responders and will continue to 
support them in their critical preparedness and response 
efforts. I look forward to any questions that you may have.
    [The statement of Dr. Polk follows:]
                  Prepared Statement of James D. Polk
                             April 17, 2012
    Good afternoon, Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee. It is an honor to testify 
before you today on the Department of Homeland Security's (DHS) efforts 
regarding medical countermeasures (MCM) for first responders.
    As you are aware, the Office of Health Affairs (OHA) provides 
health and medical expertise in support of the DHS mission to prepare 
for, respond to, and recover from all threats and hazards. OHA's 
responsibilities include: Serving as the principal advisor to the 
Secretary and the Federal Emergency Management Agency (FEMA) 
Administrator on medical and public health issues; leading and 
coordinating biological and chemical defense activities; providing 
medical and scientific expertise to support DHS preparedness and 
response efforts; and leading the Department's workforce health and 
medical oversight activities. OHA also serves as the primary DHS point 
of contact for State, local, Tribal, and territorial governments on 
medical and public health issues.
    OHA has four strategic goals that coincide with the strategic goals 
of the Department:
    1. Provide expert health and medical advice to DHS leadership;
    2. Build National resilience against health incidents;
    3. Enhance National and DHS medical first responder capabilities; 
        and
    4. Protect the DHS workforce against health threats.
    Today I will discuss a number of MCM and first responder 
initiatives that support our strategic goals.
 executive order 13527: establishing federal capability for the timely 
   provision of medical countermeasures following a biological attack
    Executive Order (E.O.) 13527 seeks to mitigate illness and prevent 
death, sustain critical infrastructure, and complement State, local, 
Tribal, and territorial government MCM distribution capacity. The 
threat of an attack using a biological agent is real and requires that 
we remain vigilant. A wide-area attack using aerosolized Bacillus 
anthracis, the bacteria that causes anthrax, is one of the most serious 
mass casualty biological threats facing the United States. A successful 
anthrax attack could potentially encompass hundreds of square miles, 
expose hundreds of thousands of people, and cause illness, death, fear, 
societal disruption, and significant economic damage. If untreated, the 
disease is nearly 100 percent fatal; those exposed must receive life-
saving MCM as soon as possible following exposure.
    In particular, Section 4 of the E.O. directs Federal agencies to 
establish mechanisms for the provision of MCM to personnel to ensure 
that the mission-essential functions of the Executive Branch 
departments and agencies continue to be performed following a 
biological attack. Due to the nature of the DHS mission, a significant 
portion of our workforce performs mission-essential functions, and 
others could be exposed during daily activities. As a result, Secretary 
Napolitano directed DHS to develop a plan and seek funding for a 
capacity to provide emergency antibiotics to all DHS employees in an 
attacked area, not just those who are mission-essential. OHA leads this 
effort for DHS and we are pleased to say that DHS is among the first 
Federal agencies to have met this requirement of the Executive Order.
                 stockpiling and forward-caching of mcm
    In the past year, OHA successfully introduced an MCM strategy to 
mitigate the impact of a biological attack on DHS personnel. As part of 
this strategy, OHA implemented a plan to purchase and stockpile MCM for 
all DHS employees, those in DHS care and custody, working animals, and 
contractor employees with DHS badges. DHS identified regional cache 
locations for every DHS Component in order to pre-position MCM across 
the country for employees to have immediate access after a biological 
incident.
    In order to make the plan both cost-effective and protect even our 
most remotely-located employees, OHA worked with the Centers for 
Disease Control and Prevention (CDC) and the Food and Drug 
Administration (FDA) to draft an Emergency Use Authorization (EUA) that 
would permit, among other things, the stockpiling and distribution of 
10-day courses of doxycycline at component caches and dispensing of the 
medication by non-health care professionals. This EUA was issued by the 
FDA Commissioner on July 21, 2011. OHA was then able to forward-cache 
nearly 200,000 courses of MCM to 127 field locations for regional 
stockpiling, in addition to centrally stockpiling additional MCM that 
might need to be utilized following an incident. OHA continues to 
partner with FDA to satisfy regulatory considerations for re-labeling 
and forward-caching of MCM. In addition, pre-EUA submissions are in 
place to support a possible EUA for ciprofloxacin, an antibiotic that 
is also effective for post-exposure prophylaxis of inhalational 
anthrax.
    Until an EUA for ciprofloxacin is issued, DHS is restricted to 
distributing this countermeasure in the currently approved 60-day 
courses and through a traditional medical dispensing model utilizing 
DHS health care providers, including the Department's more than 3,500 
Emergency Medical Service Technicians (EMTs). However, provisions in 
both House and Senate versions of the Pandemic and All-Hazards 
Preparedness Act (PAHPA) reauthorization bill would, if enacted, 
facilitate such pre-event and response activities.
    In the event of a biological incident, it is important to remember 
that all affected DHS personnel and their families will also have 
access to MCM from the Strategic National Stockpile through existing 
community points of dispensing (PODs).
          advising dhs leadership on health and medical issues
    Serving as the principal advisor to the Secretary and FEMA 
Administrator on medical and public health issues has afforded OHA the 
ability to ensure synergistic efforts in implementing a Department-wide 
strategy for MCM. OHA provides guidance and comprehensive planning 
information to DHS components through the Anthrax Operations Plan 
Department Guidance Statement (DGS) in coordination with the Office of 
Operations Coordination and Planning, develops and delivers training on 
dispensing of the MCM, assists operational components in the 
development of dispensing plans and conducts DHS points of dispensing 
(POD) exercises. To supplement the DGS, OHA also provides medical 
guidance for MCM storage, administration, and non-medical PODs, as well 
as medical treatment for working and service animals exposed to anthrax 
spores. We are now in the process of sharing lessons learned and 
coordinating with the Federal interagency to ensure the consistency of 
plans across the Federal Government, including our partners at the 
Department of Health and Human Services (HHS), CDC, and the FDA.
    Coordinated medical oversight provided by OHA ensures that the 
Department's MCM program and medical treatment rendered pursuant to the 
program is uniform and consistent to National standards. Currently, OHA 
has a medical liaison officer (MLO) responsible for the provision of 
medical guidance, support, and leadership at FEMA, which has proven to 
be a very successful model. We are in the process of establishing MLOs 
with Customs and Border Protection (CBP), the Transportation Security 
Administration (TSA), and Immigration and Customs Enforcement (ICE) to 
support their operational workforces. These Components will benefit 
from coordinated and centralized medical programmatic direction and 
guidance from OHA, along with an established protocols system that will 
support and enhance steady-state and deployment readiness activities. 
The Department as a whole will be better situated to prepare for and 
respond to disasters and significant events through the increased depth 
in medical leadership this structure provides.
                 response guidance for first responders
    OHA also provides our State, local, Tribal, and territorial 
partners with guidance for protection of personnel responding to a 
wide-area anthrax attack. Through the Federal interagency process, OHA 
and HHS's Office of the Assistant Secretary for Preparedness and 
Response (ASPR) co-led the effort to develop consensus guidance 
regarding appropriate protective measures for first responders in the 
immediate post-attack environment of an aerosolized anthrax attack. The 
guidance reflects the most current understanding of the unique 
environment that would exist after a wide-area anthrax release. The 
guidance is a prudent step to provide to first responders the best 
information on protective measures currently available.
              pre-event anthrax vaccination for responders
    In July 2009, the CDC Advisory Committee on Immunization Practices 
(ACIP) stated that by priming the immune system before exposure to 
Bacillus anthracis spores, pre-event vaccination might provide more 
protection than antimicrobial drugs alone to persons at risk for 
occupational exposure. ACIP recommendations state that, ``Emergency and 
other responders are not recommended to receive routine pre-event 
anthrax vaccination because of the lack of a calculable risk 
assessment. However, responder units engaged in response activities 
that might lead to exposure to aerosolized B. anthracis spores may 
offer their workers voluntary pre-event vaccination. The vaccination 
program should be carried out under the direction of a comprehensive 
occupational health and safety program and decisions for pre-event 
vaccination should be made based on a calculated risk assessment.'' 
(Centers for Disease Control and Prevention, 2010)
    ``Responders'' refers to a diverse set of individuals who perform 
critical services necessary to mitigate the potential impact of a wide-
area anthrax attack. These responders may either be in the area 
identified as the point of initial release and/or are called in from 
elsewhere to provide follow-on activities in a contaminated area 
performing critical services. Our National response capability to a 
wide-area anthrax attack would be enhanced by having pre-vaccinated 
responders, able to deploy immediately and confident that they have 
been afforded as much protective status as possible for these 
activities. Pre-event vaccination of these responders will increase the 
ability to save lives, maintain social order, and ensure continuity of 
Government after a wide-area anthrax attack.
    The CDC's Strategic National Stockpile (SNS) approached OHA in June 
2011 with the idea of working collaboratively to determine a use for 
anthrax vaccine with a short shelf life rather than disposing of the 
unused vaccine. Anthrax vaccine is currently stockpiled in the CDC's 
SNS to support State and local response during a widespread aerosolized 
anthrax release. Based on DHS threat assessments and the Department's 
prioritization of efforts for anthrax preparedness, voluntary pre-event 
vaccination of responders is deemed to be an appropriate step to 
prepare for this threat.
    Therefore DHS and CDC SNS are developing a program for the 
provision of expiring anthrax vaccine to Federal departments and 
agencies, as well as State and local jurisdictions for the voluntary 
pre-event vaccination of responders. Each Federal, State, local, 
Tribal, or territorial program must meet eligibility requirements, 
including the existence of a comprehensive occupational health and 
safety program through which to manage a vaccination program for 
anthrax vaccine. It is important to note that the Federal Government is 
not establishing a Federal vaccination program for State and local 
responders, but rather providing an existing resource to States and 
localities who will implement the vaccination program within their 
jurisdictions. No funding or other resources for any administrative 
programmatic support requirements will be associated or available 
through DHS or HHS outside of the provision of the physical vaccine. 
Such a program would distribute anthrax vaccine to responders at 
greatest risk of exposure and would not impact vaccines needed for 
Department of Defense (DOD) personnel recommended to receive the 
vaccine for general use prophylaxis.
    As part of the program development process, CDC and OHA formed a 
Federal interagency working group to discuss key decision points 
regarding voluntary pre-event anthrax vaccination of responders. This 
working group convened a series of meetings to discuss scientific 
medical data and policy implications among subject matter expert 
representatives from over twelve different Federal departments. The 
group developed pre-event anthrax vaccine risk prioritization guidance 
for use in the event that demand exceeded supply of vaccine. This 
guidance identifies the categories of responders eligible to receive 
pre-event anthrax vaccine, contingent on supply and current threat 
assessment. All categories of responders identified in this guidance 
are considered at sufficient risk of future exposure to anthrax to 
warrant voluntary pre-event vaccination, should the supply be 
sufficient at the time of the request.
    The first step to initiate this pre-event anthrax vaccine 
distribution program is to pilot the program on a small and manageable 
scale to ensure the methodology supports responsible vaccine use and to 
help the U.S. Government understand demand for the vaccine. The pilot 
program will provide data to allow us to make changes to improve 
program management and to help scale up the program, as needed, to 
achieve a safe, reliable, functional, and sustainable capability to 
widely distribute vaccine, within the constraints of existing program 
capacity. The pilot will include two Federal departments or agencies 
and two State or local jurisdictions (including Tribal and territorial 
jurisdictions) interested in working with DHS OHA and CDC SNS to 
deliver this program to a pilot cohort of responders. Those selected 
will manage a voluntary anthrax vaccination program for a minimum of 18 
months, in order to accommodate the full 5-dose priming series of 
vaccine to the volunteer recipients.
                               conclusion
    Thank you again for the opportunity to testify today. The 
Department of Homeland Security values the work of the Nation's first 
responders and we are always looking for ways to support them in their 
critical preparedness and response efforts. I look forward to any 
questions that you may have.

    Mr. Bilirakis. Thank you, Dr. Polk.
    Mr. Gabriel, you are recognized for 5 minutes.

    STATEMENT OF EDWARD J. GABRIEL, MPA, EMT/P, CEM, CBCP, 
    PRINCIPAL DEPUTY ASSISTANT SECRETARY, PREPAREDNESS AND 
     RESPONSE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Gabriel. Good afternoon Chairman Bilirakis and Ranking 
Member Richardson and Members of the subcommittee.
    I am Edward Gabriel, the principal deputy assistant 
secretary for preparedness and response at the United States 
Department of Health and Human Services. Thank you for inviting 
me here today on behalf of HHS to testify on protecting first 
responders.
    Before I describe HHS efforts to protect first responders, 
I want to note that before joining ASPR 7 months ago, I spent 
30 years as an emergency medical technician, paramedic, and 
chief with the New York City fire department emergency medical 
services. I was on ground prior to the collapse of the towers 
on September 11 as a deputy commissioner of emergency 
management and personally witnessed the heroism and sacrifices 
of fellow first responders.
    I understand the needs of first responders, and I truly 
believe that we in the Federal Government are making a 
difference in our Nation's preparedness and will continue to 
improve the lives of those who are doing work on the ground 
every single day.
    As good stewards of our limited Federal resources, HHS and 
our Federal partners are developing tools and strategies with 
all-hazards adaptability for our first responders. One tool in 
development is the med kit. The anthrax med kits would contain 
antibiotic doxycycline along with instructions for appropriate 
use in home. Med kits would be available in advance of an 
emergency to particular groups, such as first responders and 
families. While further research is needed to ensure med kits 
can be safely stored and used in private homes, HHS is 
optimistic about this capability and its implications for our 
first responders' protection during a public health or medical 
emergency.
    The second tool in the development is the postal model. HHS 
awarded the National postal model grants in specific cities and 
jurisdictions throughout the country. These grants fund 
planning and exercises to incorporate U.S. Postal Service's 
employee volunteers into community plans to deliver 
countermeasures after an anthrax bioterrorism attack.
    Recently, HHS supported a tabletop exercise in Louisville, 
Kentucky. Our primary focus of this exercise was to determine 
the roles of law enforcement and postal workers in the delivery 
of medical countermeasures under real-life circumstances. HHS 
is planning another full-scale exercise in Minneapolis on May 5 
to examine issues and implications for the delivery of 
countermeasures to approximately 40,000 households in four zip 
codes. Since this program began in 2010, we have captured 
lessons learned from various exercises and have improved future 
applications and planning guidance.
    As we analyze these results, we will coordinate with our 
partners and incorporate best practices into similar 
applications. We are also developing a new and improved medical 
countermeasures and personal protective equipment to protect 
first responders in their communities. Since Project BioShield 
was authorized in 2004, HHS has built a robust pipeline of 
next-generation medical countermeasure products. We have funded 
over 80 candidate products that, if successful, will have the 
potential to transition to procurement contracts and inclusion 
in the Strategic National Stockpile.
    I would like to note that funding for Project BioShield 
expires in 2013. You and your colleagues are working to 
reauthorize the Pandemic All-Hazards Preparedness Act, which 
includes the reauthorization of appropriations for Project 
BioShield through 2018. The reauthorization of PAHPA supports 
our work and will ensure we continue to have tools necessary to 
respond.
    Lastly, as my colleague from DHS mentioned, I would like to 
note that we are in the final phases of completing guidance for 
first responders following an anthrax attack. This is a 
significant step in protecting first responders, and I look 
forward to sharing more on this guidance in the near future.
    In conclusion, all of our efforts come down to the same 
goals: Building a resilient Nation and saving lives when 
emergencies occur. This is true for all of us, whether at the 
Federal, State, local, or private sector.
    Before I came to ASPR, I was a director of global crisis 
management and business continuity for the Walt Disney company. 
My work required strong development of protective relationships 
worldwide with law enforcement, emergency management, 
intelligence services, as well as my private-sector 
counterparts. Based on my experiences, I have learned that 
meeting the needs of first responders before, during, and after 
an event is critical. I look forwarded to working with you to 
ensure that our progress continues and we, as a Nation, are 
truly prepared.
    I thank you for the opportunity to testify before you 
today, and I would be happy to answer any questions you may 
have.
    [The statement of Mr. Gabriel follows:]
                Prepared Statement of Edward J. Gabriel
                             April 17, 2012
    Good afternoon Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. I am Mr. Edward Gabriel, the principal 
deputy assistant secretary for preparedness and response (ASPR) at the 
U.S. Department of Health and Human Services (HHS). Thank you for 
inviting me here today, on behalf of HHS, to testify on protecting 
first responders.
    Before I begin this afternoon, I want to mention that maintaining 
and supporting our State and local response capability is of particular 
personal significance to me. Before joining ASPR 6 months ago, I spent 
30 years as a first responder. I began as an emergency medical 
technician (EMT) then became a paramedic working throughout the city of 
New York. I rose through the ranks to become a New York City Fire 
Department Emergency Medical Services system assistant chief and 
ultimately became the deputy commissioner for planning and preparedness 
in New York City's Office of Emergency Management. I was on the ground 
with other first responders prior to the collapse of the towers on 
September 11, 2001 and personally witnessed the heroism and sacrifices 
of our first responders. I have spent my career responding to 
emergencies. I understand the needs of first responders and I truly 
believe that what we in the Federal Government are doing is making a 
difference in our Nation's preparedness and will continue to improve 
the lives of those doing the work on the ground.
    This afternoon I'm going to talk to you about the unique role that 
HHS plays in protecting and supporting the Nation's first responder 
community and helping them become more resilient after tragedy strikes. 
Our strategic approach involves creating best practices for getting 
medical countermeasures to first responders quickly in a range of 
emergency situations; developing promising new products, tools, and 
technologies to protect our first responders and giving them the tools 
needed to be successful; and integrating behavioral health into overall 
public health and medical preparedness, response, and recovery 
planning. First responders are defined as a diverse set of individuals 
(emergency medical services practitioners, firefighters, law 
enforcement, and HAZMAT personnel, the emergency management community, 
public health and medical professionals, skilled support personnel, 
emergency service and critical infrastructure personnel, certain other 
Government and private sector employees, and individual volunteers 
assisting in response activities) who are critical to mitigating the 
potential catastrophic effects of public health emergencies. I'll talk 
about our new approaches to coordination where Federal, State, local, 
Tribal, territorial, and private-sector partners comprise the ``medical 
countermeasures enterprise'' and come together to collaborate and plan 
the development and deployment of countermeasures. Our approach 
throughout this enterprise takes the whole system into account--from 
early research to deployment--and includes the needs of first 
responders. I'll also focus on the first responder community not only 
in the context of medical, fire, and police but also other critical 
human services and how you and I, our families, and those in our 
communities might also play critical roles in a first response. I hope 
to leave you today with a clear picture of our work in this area and 
our proactive strategies to continue progress. Our Nation's ability to 
respond to an emergency depends on truly collective approaches and a 
strong partnership with our State and local partners who have the 
primary role in those first critical moments when the speed and 
thoughtfulness of response translates into more lives saved.
    Supporting and assisting our Nation's first responders is a top 
Federal priority; however, we all recognize that the act of first 
response occurs primarily at the State and local level. Therefore, we 
focus attention on empowering States and communities to prepare for and 
respond to emergencies as safely, effectively, and efficiently as 
possible. As we are all aware, when disasters strike it is the response 
from the local community during the minutes before and after the event 
that saves lives. Our communities need to be resilient and be able to 
respond quickly. Today, State and local communities are more resilient 
than ever before. Incidents including the tornadoes that touched down 
in Alabama and Missouri in 2011 and recent flooding in Louisiana 
demonstrated how State and local communities are able to respond during 
the initial stages of the public health emergency response with little 
to no need for Federal assistance. HHS' Hospital Preparedness Program 
(HPP) and Public Health Emergency Preparedness (PHEP) cooperative 
agreement programs support State and local resilience by funding 
preparedness activities and infrastructure at State and local public 
health and medical facilities. A Hospital Preparedness Program report 
entitled ``From Hospitals to Healthcare Coalitions: Transforming Health 
Preparedness and Response in Our Communities,'' describes the 
achievements of our State partners in building health care preparedness 
across the Nation, and illustrates how States have used the 
capabilities developed and funded through the program in both large and 
small incidents. One specific accomplishment detailed in this report is 
that more than 76 percent of hospitals participating in the HPP met 90 
percent or more of all program measures for all-hazards preparedness in 
2009. These activities promote community resilience and improve health 
outcomes following emergencies and disasters.
    Despite HPP and PHEP investments, the financial realities we are 
all facing today continue to challenge our public health and medical 
infrastructure and, ultimately, communities' ability to be resilient. 
We are already witnessing a decline in the State and local public 
health workforce as a result of these fiscal constraints.
    As good stewards of Federal resources, we must focus on developing 
tools and strategies for all-hazards which can be implemented in a 
range of emergencies. If a chemical, biological, radiological, nuclear 
(CBRN), or emerging infectious disease incident were to occur, we might 
have a few minutes or hours, not days, to dispense medical 
countermeasures to treat first responders and their communities, 
depending on the nature, scope, and size of the event. We will need 
first responders on the ground as soon as possible to treat the health 
impacts of the event and maintain the safety and security of their 
communities. In the aftermath of an event we will rely on multiple 
modalities to protect first responders, including pre- and post-event 
treatments. This treatment strategy is central to many of our 
preparedness plans including those for anthrax, smallpox, influenza, 
and other agents. For bacterial threats, antibiotics offer one of the 
best courses of action as vaccines can take days, weeks, or months to 
be effective unless provided to responders before-hand. For example, 
the CDC's Advisory Committee on Immunization Practices recommends a 
three-dose anthrax vaccination regimen, as a post-exposure prophylaxis, 
for responders following an event, in addition to antibiotics. While 
the first vaccine dose would be administered as soon as possible post-
exposure, the second and third doses would be administered 2 and 4 
weeks later. The vaccine is not immediately effective and is not fully 
protective until after that third dose. Antibiotics are an important 
part of treatment strategies to bridge time gaps by maximizing 
protection from vaccines post-exposure.
    To provide a quick and effective response, first responders will 
need to receive the most effective treatments quickly. I am pleased to 
say that Federal partners are working better together to ensure that we 
have the best tools available to treat and respond effectively to 
public health and medical emergencies. Federal partners are 
collaborating via the Public Health Emergency Medical Countermeasures 
Enterprise (PHEMCE)--the overarching interagency convening body for 
medical countermeasure development, stockpile, and use. ASPR leads the 
PHEMCE, which brings together three primary HHS agencies--the National 
Institutes of Health (NIH), the Centers for Disease Control and 
Prevention (CDC), and the Food and Drug Administration (FDA)--along 
with four key interagency partners--Department of Homeland Security 
(DHS), Department of Defense (DoD), Department of Veterans Affairs 
(VA), and Department of Agriculture (USDA). Working together full-time, 
as an enterprise, we are coordinating, exchanging information, and 
learning from each other daily to optimize preparedness and response 
for public health emergencies. The PHEMCE is bringing together partners 
not only to identify and support the development of a number of novel 
medical countermeasures to protect first responders but to also 
identify and plan for the use and distribution of acquired products.
    Today, HHS and other Federal partners are working to develop new 
tools with potential all-hazards adaptability to support and protect 
first responders. While HHS does not lead first responder activities, 
we do have a critical and unique role in advancing promising approaches 
in response at the National level which can then translate into local 
use. One such approach in the development and pre-approval phases is 
the anthrax ``med kit.'' The anthrax med kits contain the antibiotic 
doxycycline along with instructions for appropriate use in the home. 
Upon approval, med kits would be available in advance of an emergency 
to particular groups such as first responders and their families. These 
med kits could be purchased directly, either by the first responders 
themselves or their employers. While further research is needed to 
ensure med kits can be safely stored in private homes without misuse, 
we are optimistic about this capability and its implications for first 
responder protection during a public health or medical emergency.
    As you know, we have already seen success in the use of the med kit 
concept through pilot testing the National U.S. Postal Service (USPS) 
medical countermeasures dispensing program. Supporting implementation 
of actions described in Executive Order 13527, Medical Countermeasures 
Following a Biological Attack, HHS has invested $10 million since 2010 
to support National Postal Model grants awarded to specific cities and 
jurisdictions throughout the country. The grants fund planning and 
exercises to incorporate USPS employee volunteers into community plans 
to deliver medical countermeasures after an anthrax bioterrorism 
attack. Under this model, volunteer USPS letter carriers receive pre-
event antibiotics via a Home Antibiotic kit that they store in their 
homes; these are for themselves and household members. If a public 
health or medical emergency requiring medical countermeasures occurred, 
letter carriers and their household members would be instructed to 
begin taking their antibiotics. This would allow these USPS volunteers 
to perform their mission, as outlined in the National Postal Model, to 
deliver antibiotics as prescribed by their specific postal plans. Law 
enforcement officers accompany the letter carries as they deliver the 
antibiotics to homes in predetermined ZIP codes. Since this program 
began, we have learned lessons from the various exercises and have 
improved future applications and planning guidance. Recently, HHS held 
a table-top exercise in Louisville, KY. A primary focus was determining 
the roles of law enforcement and postal workers in delivery of medical 
countermeasures under ``real-life'' circumstances. HHS is planning 
another full-scale exercise in Minneapolis on May 5 to examine issues 
and implications for the delivery of countermeasures to approximately 
40,000 households in four zip codes. As we analyze results, we will 
coordinate with our partners and incorporate best practices into 
similar applications.
    As we work with our partner agencies to develop all-hazards tools 
to support first responders, we must also develop policy documents to 
guide efforts to protect first responders and their communities from an 
anthrax attack and other emergencies. These interagency guidance 
documents will provide clarity and improve coordination to ensure that 
the needs of all responders are met before, during, and after an 
emergency. It is critical that strategies are developed before an event 
to ensure that the tools available for all responders are used to their 
maximum capacity.
    In addition to developing the policies themselves, there will be 
implementation challenges, including monitoring recipients of pre-event 
vaccinations, and in the aftermath of an event, the immediate 
availability of adequate vaccine and the availability of resources to 
support vaccination in the midst of an on-going event will need to be 
addressed. These challenges span the regulatory authorities and 
resources of several Federal agencies and departments, as well as those 
of our State and local partners. HHS is actively engaging with 
interagency partners to address these challenges and establish policies 
for the distribution of medical countermeasures to first responders, 
not just for anthrax, but for all potential hazards and threats. As 
such, the resulting guidance documents will be considered ``living 
documents'' in the sense that they will be refined as the evidence base 
is strengthened for determining exposure risk and the efficacy of 
protective measures and feedback is received from stakeholders. Even as 
we update existing guidance and disseminate new guidance, we will look 
forward to continuing dialogue with our stakeholders and partners in 
the first responder community.
    We've done considerable work in developing novel approaches to get 
medical countermeasures to first responders quickly and coordinate at 
all levels of government to ensure that our first line of defense is 
protected in an emergency. However, we are also looking forward and 
developing new and better medical countermeasures to both protect first 
responders and the communities they live in, as well as improving their 
tool kit to treat those affected. In August 2010, HHS Secretary 
Sebelius released the Public Health Emergency Medical Countermeasures 
Enterprise Review: Transforming the Enterprise to Meet Long-Range 
National Needs (MCM Review). The MCM Review examined the steps involved 
and made recommendations regarding the research, development, and 
regulatory approval of medications, vaccines, and medical equipment and 
supplies for a public health emergency. In implementing recommendations 
of the MCM Review, HHS has already made progress in improving the 
entire medical countermeasure pipeline--from early stage research and 
development to distribution.
    As I mentioned earlier in my testimony, the PHEMCE is bringing 
together partners to identify and to support the development and 
deployment of a number of novel medical countermeasures to protect 
first responders. My office works closely with HHS partners including 
NIH, CDC, and FDA to develop, procure, and stockpile medical 
countermeasures for CBRN threats as well as emerging infectious 
diseases, including pandemic influenza. We are now more prepared for a 
broad range of threats and emerging infectious diseases than at any 
point in our Nation's history. We have a robust pipeline of next-
generation products--we have gone from having very few products in the 
medical countermeasure pipeline over the last decade to funding over 80 
candidate products that, if successful, have the potential to 
transition to procurement contracts and inclusion in the SNS. These 
products include: An entirely new class of antibiotics; anthrax vaccine 
and antitoxins; a new smallpox vaccine and antivirals; radiological and 
nuclear countermeasures including candidates to treat the various 
phases of acute radiation syndrome; pandemic influenza countermeasures; 
and chemical antidotes. In many cases, these products represent the 
future for enhanced protection of first responders.
    Since Project BioShield--the primary tool HHS uses to procure novel 
CBRN medical countermeasures for the SNS--was authorized in 2004, HHS 
has strengthened internal and external contracting mechanisms, and 
research and development pathways, and has incorporated lessons learned 
from past challenges. As my colleague at DHS will detail, there is much 
discussion about the pre-event vaccination of first responders against 
threats such as anthrax. However, the current vaccine regimen is 
burdensome as it requires five vaccinations over 18 months and annual 
boosters to produce immunity. We all agree that all responders have to 
be adequately protected, and if a decision is made to make anthrax 
vaccine available to them, it would help to have vaccines that require 
fewer immunizations. As part of its efforts to develop vaccines to 
protect the entire civilian population, HHS is currently investing in 
more than 20 programs for next generation anthrax vaccines, four of 
which have transitioned from early to advanced research and 
development. The programs have the potential to provide protective 
immunity with 3 doses of vaccine or less, are easier to administer, and 
have a decreased life-cycle cost due to lack of the cold chain 
requirement.
    Funding for Project BioShield expires in 2013 and work to 
reauthorize the Pandemic and All-Hazards Preparedness Act (PAHPA) is 
on-going. The proposed legislation includes the reauthorization of 
appropriations for Project BioShield through 2018. Investing in 
development of medical countermeasures, novel approaches to response 
operations, and our public health infrastructure is critical in 
ensuring that adequate medical countermeasures are available for 
dispensing as soon as possible following the start of a public health 
incident. The reauthorization of PAHPA will support our work and will 
ensure we continue to have the tools necessary to respond.
    As part of our strategic approach to encouraging innovation in 
medical countermeasure development, we are also developing new tools 
for all responders and a number of these efforts are already showing 
results. HHS is developing a next generation portable ventilator that 
will be lighter and less expensive, making it easier and quicker to 
administer critical treatments. In 2007, HHS convened a blue ribbon 
panel of experts to review the state of ventilators in the market 
against the requirements for use in all-hazards preparedness. In 
September 2010, an advanced research and development contract was 
awarded to Newport Medical in California for design and development of 
a next-generation portable ventilator that is at a highly-affordable 
price point and that could be used with minimal training on a broad 
range of patients from neonates to adults. A prototype was developed by 
July 2011 and is currently being evaluated. The initial results are 
promising and the program is on schedule to file for market approval in 
September 2013.
    As we develop medical countermeasures to respond to public health 
and medical emergencies we must not ignore the needs of first 
responders and their communities after an event. Community-based 
responders are the first to arrive on the scene when an incident occurs 
and they remain in the community through recovery. A major event such 
as an aerosolized anthrax attack will require response and recovery 
activities long after the initial threat has passed. First responders 
will play a key role in these locally-led recovery efforts toward the 
restoration of public health and medical services. First responders are 
the backbone of our public health and safety infrastructure; by 
supporting them, we ensure that the human infrastructure remains intact 
throughout the response and recovery phases, and ready for the next 
emergency. Recovery is a part of preparedness, and the National 
Disaster Recovery Framework, released in September 2011, provides 
guidance to all levels of government, the private and nonprofit 
sectors, and individuals and families on activities they can undertake 
both pre- and post-disaster to plan for a successful recovery. HHS 
leads the Health and Social Services Recovery Support Function under 
that framework, and ASPR has established a Recovery Coordination Office 
to carry out those responsibilities and also leverage opportunities to 
incorporate recovery into on-going preparedness efforts. We have also 
supported innovation and continuous improvement in our efforts to 
support first responders and others during the recovery phase. Based on 
lessons learned in Hurricanes Katrina and Rita, HHS recognized the need 
for enhanced coordination of disaster-related health care, mental 
health and human services needs at all phases of response. Today HHS' 
Administration for Children and Families, in partnership with FEMA, 
administers the Federal Disaster Case Management Program, which 
provides disaster survivors with a single point of contact for 
accessing resources and services to address disaster-caused needs, and 
for developing and completing a personalized Disaster Recovery Plan. 
While they are not first responders in the traditional sense, our 
disaster case managers are on the ground in the aftermath of a disaster 
providing support to their fellow responders and impacted individuals.
    In addition to supporting officially designated and trained first 
responders, we are also leveraging the internet to supplement the first 
response. In particular, under the America Competes Act, we are issuing 
a ``challenge'' for development of a web-based application able to 
automatically deliver a list of the top-five trending illnesses from a 
specified geographic region in a 24-hour period. Under the envisioned 
program, data would then be sent directly to State and local health 
practitioners to use in a variety of ways, including building a 
baseline of trend data, engaging the public on trending health topics, 
serving as an indicator of potential health issues emerging in the 
population, and cross-referencing other data sources. The more we know 
and the earlier we understand emerging health trends, the better 
prepared we all are--including first responders--in providing treatment 
to affected individuals and limiting the impact of the event.
    In conclusion, all of our investments and efforts come down to the 
same goals--building a resilient Nation and saving lives when 
emergencies occur. This is true for all of us, whether in the Federal, 
State, local, Tribal, territorial, or private sector. Before coming to 
ASPR, I was the director of global crisis management and business 
continuity for the Walt Disney Company. In this position I was 
responsible for the development and implementation of global policy, 
planning, and training to manage crises for The Walt Disney Company. I 
was also responsible for East and West Coast Medical and Emergency 
Medical Operations as well as the Walt Disney Studio's Fire Department. 
My work with Disney required development of strong and productive 
relationships with law enforcement, emergency management and 
intelligence services counterparts, as well as private sector 
counterparts world-wide. Based on my experiences, meeting the needs of 
our first responders before, during, and after an event is critical. We 
have made great strides toward building a robust enterprise to develop 
medical countermeasures and to quickly get them to people who need 
them. We are incorporating the clinical community into National 
preparedness systems and are preparing clinicians to treat patients 
affected by emergencies. We are collaborating with State and local 
partners to develop, exercise, and improve their response capabilities. 
All of our efforts will ensure the next public health or medical 
emergency is responded to in the best, most effective way possible. I 
look forward to working with you to ensure that this progress and our 
strategies for the future continue to prepare the Nation and save 
lives.
    Thank you for the opportunity to testify before you today. I am 
happy to answer any questions you may have at this time.

    Mr. Bilirakis. Thank you for your testimony. I appreciate 
it very much.
    I will recognize myself for 5 minutes for questions.
    This question is for Dr. Polk and Mr. Gabriel. On October 
2009, DHS published draft guidance for protecting the health of 
first responders immediately following a wide-area anthrax 
attack. We know that the first responder community is waiting 
for this guidance, and of course, our Ranking Member brought 
this up in her opening statement. Of course, the guidance has 
since become a joint effort between DHS and HHS. So my 
question, of course, is for both of you. Please tell me where 
this guidance is and why is it now more than 30 months since a 
draft was received and we still don't have the final guidance 
published that our first responders can use to prepare for any 
type of an event? If you can both address that, I would 
appreciate it. Thank you.
    Dr. Polk. Sure. Thank you, Mr. Chairman.
    First off, I am happy to report both Ed and I have worked 
diligently with our counterparts in DHS and HHS on this 
guidance to get it moving forward, and it was approved by the 
DRG earlier this month. My last understanding is that it is 
going through the signature cycle, getting all of the 
interagency logos applied to it, and then it will very soon--
within the coming weeks--go through the final interagency 
vetting process and then be released.
    So I think it was Dr. Garza in his testimony that said we 
were rounding third and heading for home, and I think we are 
almost home.
    Mr. Bilirakis. Okay. So give me a better estimate. Be more 
precise as to when you think our first responders will get the 
guidance.
    Dr. Polk. I think that will depend on if we get any 
comments back from the interagency vetting process. If we have 
any other comments back from any of the interagency's partners, 
it may take a little bit longer to vet those. But I would 
imagine we would have that, quite frankly, by mid-May.
    Mr. Bilirakis. Why has it taken so long?
    Dr. Polk. I think initially, you know--and to be as precise 
as I can, a lot of it is to make sure that we had the absolute 
best level of evidence to go into the document. Because there 
were changes in evolution over the last several years as to 
what is the best PPE equipment to use, what is the best 
treatment for anthrax, and also, as we had all of these other 
different programs come on-line, whether it was vaccination, 
whether it was pre-event vaccination or post-event vaccination, 
we wanted to make sure that this document was contiguous with 
other programs that were coming out, that we did not cause 
confusion or actually add to a problem with our first 
responders by having one document that said one thing and a 
second document that said another that was a follow-on document 
for public health. So we wanted to make sure that we vested a 
lot of time to get this right the first time.
    It is still going to be released as a draft so we can get 
public comment when the folks see it because we are under no 
guise that we have anticipated all the issues that may confront 
the first responders. But we wanted to make sure that we had it 
right because these folks, quite frankly, are going to be 
rushing into an anthrax event in a hot zone, and this is not 
something where we wanted to leave a lot of guesswork.
    Mr. Bilirakis. Okay. Thank you.
    Mr. Gabriel.
    Mr. Gabriel. Well, I have seen the overall document since 
getting to ASPR back in November and September, and I have 
taken a look at it. I know our offices have been working 
closely within our partners at the HHS side, the Centers for 
Disease Control, as well as all of our other partners to make 
sure that the guidance was clear enough to meet the needs of 
somebody who is on the ground.
    The issue with anything like this is it can't be perfect. 
When you try to look at guidance like this, you want to keep it 
as general for the people that are really in the field to 
understand and use appropriately. Sometimes when you look at 
document development like this, you get a lot of technical sort 
of concepts put into something that needs to be operationalized 
at the field level. I have seen that from my experiences over 
the last.
    So we took a good hard shot over the last few months fixing 
those gaps and making sure that it meets the needs of 
responders more clearly so that when they look at and give us 
their input again on this, they are able to say, hey, this will 
work in the field. I think that is important. So I think that 
we are just a handful of days away from getting this out. 
Again, I can't speak for the process above me. But I think the 
first responder community will be generally happy with it, when 
it gets their visibility on it.
    Mr. Bilirakis. Thank you.
    Dr. Polk, you discussed in your testimony that your office 
is working on guidelines for the use of expiring doses of 
anthrax vaccine in the National Stockpile for provisions on a 
voluntary basis. You mentioned, of course, to first responders. 
We know that such a program is of course a priority. It also 
sounds like good Government. We are going to save money. It is 
a better alternative to throwing away millions of perfectly 
good vaccines. I am sure you will agree. In fact, legislation 
under consideration by this committee has asked for that very 
thing.
    I would like to hear more about the pilot and to understand 
your principles for implementation, even though the program 
guidance is not yet ready. I would also like to hear how this 
program will differ from the unsuccessful smallpox vaccination 
effort for health care workers undertaken by the Federal 
Government a few years before. So if you could respond, I would 
appreciate it.
    Dr. Polk. Yeah. Thank you, Mr. Chairman and thanks for the 
opportunity to talk about this novel program.
    Obviously, DHS has worked hand-in-glove with our HHS CDC 
partners on this. As you mentioned, the Strategic National 
Stockpile has vaccine that expires every year, sometimes to the 
tune of about 2 million doses, $48 million per year, that we 
have to recycle, throw out when it expires and recycle. The 
goal of this pilot program is to take this vaccine 
approximately 6 months before it expires and make it available 
to the State and local governments as a prevaccination or pre-
event vaccination program for their folks. Again, I have to 
stress it is a pilot, meaning that the goals of a pilot are to 
discover where are the gaps, where are the lessons learned 
before we distribute this more widely or make this a more wide 
program. I believe we have worked diligently with CDC on the 
nuances of how to get the logistics of the vaccine from the 
stockpile to the State and locals. I believe what they are 
looking at right now is the legal departments from each are 
looking at, where do we have the authorization to spend 
appropriated funds, under what section, whether it is through 
FEMA or whether it is through CDC, et cetera, to get the 
vaccine there, essentially pay for postage, to make sure that 
we can get the vaccine there to the State and locals?
    Mr. Bilirakis. Which States are you proposing to 
participate in the pilot project?
    Dr. Polk. Well, I believe the States are going to, you 
know, have an application process to apply and to essentially 
allow the States to volunteer. The criteria are going to be 
fairly short and succinct. They need to have an occupational 
surveillance program so that they can monitor any vaccine 
reactions, et cetera. They need to have a good distribution 
program. They need to make this voluntary. Those are the basic 
guidelines that the States are going to have to use. But we 
obviously want to make sure that if they are going to give this 
vaccine that they have good follow-up for anyone who has a 
vaccine reaction, that they can answer questions, that they can 
educate the folks who are going to get the vaccine properly. So 
those are the criteria that the States would use initially. So 
they are not going to be very rigid. So hopefully we will get a 
fair amount of folks that are willing to engage in the program.
    Mr. Bilirakis. Thank you.
    I recognize you for 5 minutes, Ranking Member Richardson.
    Ms. Richardson. You mean 8 minutes and 18 seconds.
    Dr. Polk, can you tell me how much has been spent on the 
anthrax vaccine and what is the expected shelf life?
    Dr. Polk. Well, I can't tell you offhand. The Strategic 
National Stockpile is owned by CDC. So I would have to defer to 
my colleagues in HHS exactly as to what the cost is that they 
spend on that vaccine or what the expected shelf life is. But 
typically, FDA has medications for a 1-year shelf life for the 
most part. Although certain medications can be extended based 
on the type of medication or what buffer are in those 
medications to extend their shelf life. But I would have to 
defer to my colleagues.
    Ms. Richardson. Mr. Gabriel, do you know the answer to 
that?
    Mr. Gabriel. Well, if the answer is on this card, I do. I 
have just been told that we spent $2 billion. It has got a 4-
year shelf life.
    Ms. Richardson. Mr. Polk, did I understand you correctly 
that hopefully the guidance would be out by mid-May in draft 
form?
    Dr. Polk. I would hope so. That is assuming that with all 
of the vetting that we have done on this document, which we 
have done a great deal, that I imagine that we have resolved a 
lot of the interagency questions that have come about before. 
So, hopefully, it will slide fairly quickly through that 
vetting process.
    Ms. Richardson. In the second panel, we are going to be 
able to ask the question of the letter carriers, what they feel 
the impact might be if, in fact, they are experiencing cutbacks 
as has been proposed, which I certainly do not support. But 
have you had an opportunity to think about--either of you 
gentlemen--if the Postal Service is not able to serve in 
support of this program, what your other options would be?
    Mr. Gabriel. Well, I will start first, and then J.D. will 
take it from there.
    From a postal model perspective, I was actually out in 
Louisville talking to the postal workers directly on this. They 
want to volunteer and participate. But they are a piece of an 
overall process that involves management, that has come out of 
our all-hazards preparedness programs and our BioShield 
programs, including points of dispensing, both closed and open 
points of dispensing models. The postal model itself, we are 
looking at med kits.
    So if you look at an overall approach, if the postal model 
system begins to show and continues to show that it is 
effective, clearly, as we move forward, that has to be in our 
arsenal for protecting first responders and civilians.
    Ms. Richardson. No, my question was if it is not available 
to you.
    Mr. Gabriel. We will have to use different models as we 
already are.
    Ms. Richardson. Is there anything else sufficient to the 
level----
    Mr. Gabriel. Yeah. I think our points of dispensing models 
are good. I think the CDC, working with our DHS partners, have 
tested those models across large municipalities where real good 
work has been done for a number of years.
    Ms. Richardson. Is there any--and I apologize for cutting 
you off. But we were called for votes here. I was teasing the 
Chairman about extending my time.
    Mr. Bilirakis. We are going to try to go another round, 
too, if we possibly can.
    Ms. Richardson. My question is: Is there any other means--I 
realize the CDC has its process. But I don't know of any other 
means that could do the actual residence-to-residence 
distribution and have that kind of process in place. Is there 
anything else that compares to that?
    Mr. Gabriel. Resident-to-resident model, hand-delivered, 
no, it doesn't exist now. However, the med kit, home med kit 
process certainly has some implications relative to that. But 
we are not there yet.
    J.D., want to answer?
    Dr. Polk. Yes. At least from a DHS perspective, I don't 
think there is a one-size-fits-all that is going to work in any 
particular community. I think whether it is pods, home med 
kits, postal model, what may work in a rural area may not work 
in an inner city. I think as many models that we can use to 
help augment or distribute, to shorten the time for medication 
to exposure certainly is going to be supported by DHS.
    Ms. Richardson. Okay. Do either of you have any idea of 
when the public health emergency medical countermeasures 
enterprise plan will be released? That is in reference to 
October of last year. GAO reported that between 2007 and 2010, 
HHS invested $4.3 billion into countermeasures development, 
both the acquisition and research and development. HHS and DHS 
updated risk assessments and inventoried the Strategic National 
Stockpile that HHS has not updated the countermeasure 
investment priorities set forth in the Public Health Emergency 
Medical Countermeasures Enterprise Plan of 2007. HHS has 
confirmed to GAO that it would release an updated priorities 
plan in the spring of this year.
    Mr. Gabriel. Let me take that one, councilman--excuse me--
Congresswoman. It is that New Yorker in me testifying in front 
of the New York City Council versus the Congress.
    So two things about that. Just a little bit about the 
overall approach we are doing with this, and then I will give 
you a specific answer. We have tried to build this plan by 
making sure that whatever we put in this overall program has an 
end-to-end approach, so that it is useful on the side for 
responders and it has the scientific input. To give you the 
quick answer to that, we are expecting release of that by this 
summer.
    Ms. Richardson. Thank you.
    I yield back.
    Mr. Bilirakis. Thank you. We are going to try to go another 
round. I am going to go ahead and ask one more question, and I 
am going to give the Ranking Member an opportunity as well. 
Then we are going to have to break for votes. We have three 
votes pending, and then we will come right back. We will 
dismiss the first panel now, after we finish our questions, and 
then we will start with the second panel as soon as we finish 
for votes. Okay.
    Mr. Gabriel, your agency met with FDA just a couple of 
weeks ago to get the FDA's initial thoughts on an approval 
process for a first responder antibiotic med kit. There appears 
to still be some concerns in the public health and regulatory 
community over misuse of antibiotics. In your opinion, do you 
think the first responders, as well-educated members of the 
medical and law enforcement communities would be likely to 
handle the medication appropriately? Can you site any 
scientific studies that demonstrate that this might not be the 
case? What does your data from the current postal plan suggest?
    Mr. Gabriel. Well, thank you for that question. There was a 
meeting at the FDA, and there was a discussion about this. I 
think both the first responder community as well as the 
scientific and medical community talked to this advisory panel 
to the FDA. There are two sides to this particular discussion. 
But from a perspective--we are excited on our side and are 
looking at the med kits as a potential option here from the HHS 
ASPR side. The FDA has looked at it and will come to us, get 
back to us with more formal regulations or recommendations from 
them directly. So to answer on what the outcome is going to be, 
I don't know.
    However, as a first responder, we are dedicated people. We 
are trusted to do a lot of different things in a lot of 
different environments. Most of the studies and materials I 
have seen on this show that in the past studies that we have 
run these kinds of things, the people are dependable to handle 
these things appropriately.
    However, in the end, the overall recommendation comes 
through the FDA, and that is what we are going to wait for. But 
first responders every day are going into your houses, taking 
care of people with heart conditions, cutting you out of 
buildings and doing the things that they put their lives on the 
line to do every day. They are dependable people.
    Mr. Bilirakis. I definitely agree with you.
    Okay, I will recognize the Ranking Member for at least one 
question.
    Ms. Richardson. You mentioned--well, we talked a little bit 
about well it has taken almost 3 years now to get the guidance. 
So as we get ready to look at appropriations, you may want to 
advise the folks that you work with that it really puts this 
project in great vulnerability if we haven't received the 
guidance if we want further funding. Since it is coming up to 
expire for 2013, what would be the case that either of you 
would make of why we absolutely need to continue the program? I 
am referring to the BioShield.
    Mr. Gabriel. BioShield funds a number of different programs 
that we really do need the money for. The whole point of the 
dispensing process came through that. We use that funding every 
single day for a number of different projects in treating and 
preparing emergency response people to be ready during 
disaster. BioShield is a terrific program. Overall, there will 
be gaps in our ability to move forward on product development 
that are already in the pipeline if the funding doesn't come 
through. I mean, there is a lot more detail there. But the 
answer to the question as straightforward as I can, we want to 
make sure it is a continuum of the good work that is done so 
far on the projects and developments of countermeasures with 
over 80 of them in the pipeline.
    In addition to that, we also have used it for the 
development and acquisition of incentives to industry to make 
sure that the industry has a clear path forward and is willing 
to commit to us as a Government to continue to work on these 
projects.
    Ms. Richardson. Okay. If you could supply to the committee, 
if the Chairman does not object, the details of why you think 
it is so critical to continue and what are the benefits. Then 
if you could also clarify how much of the funds are actually 
being spent on expiring products, such as anthrax, oxidants, 
and a smallpox vaccine.
    Mr. Bilirakis. I do not object. So ordered.
    Okay. Well, thank you very much. I want to thank you for 
your service. Thank you for your testimony today. Without 
objection, what we will do is we will dismiss the first panel, 
and then we are going to recess, and we will be returning 
following votes. Thank you very much for your patience.
    [Recess.]
    Mr. Bilirakis. Well thank you very much for your patience. 
I really appreciate it.
    I want to welcome our second panel. Our first witness is 
Chief Al Gillespie. Chief Gillespie is the president and 
chairman of the board of the International Association of Fire 
Chiefs and serves as the fire chief of the City of North Las 
Vegas, Nevada. Chief Gillespie holds a bachelors of science in 
fire administration and has completed a fellowship at Harvard's 
Kennedy School of Government.
    Next, we will receive testimony from Mr. Bruce Lockwood. 
Mr. Lockwood serves as deputy director of emergency management 
for the town of New Hartford, Connecticut. Mr. Lockwood is also 
second vice president of the U.S. Council of the International 
Association of Emergency Managers and previously served as 
president of the IAEM Region 1. Mr. Lockwood served on the 
National Commission on Children in Disasters, where he chaired 
the Subcommittee on Evacuation, Transportation, and Housing, 
and served as a member of the Subcommittee on Pediatric Medical 
Care.
    Following Mr. Lockwood, we will receive testimony from 
Sheriff Chris Nocco. Sheriff Nocco is the sheriff of Pasco 
County, Florida, which happens to be in my Congressional 
district, a position he has held since May 2011. Prior to his 
appointment by Governor Scott, Sheriff Nocco served as a major 
and supervisor of the Pasco County Sheriff's Office Joint 
Operations Bureau. Sheriff Nocco has also served as a chief of 
staff of the Florida highway patrol and as the deputy chief of 
staff to the then-speaker of the Florida House and now U.S. 
Senator Marco Rubio.
    Sheriff Nocco has also served as a member of the 
Philadelphia public school police, the Broward County Sheriff's 
Office and the Fairfax County, Virginia Police Department. 
During his service in Fairfax, Sheriff Nocco responded to the 
September 11 attacks and the anthrax attacks.
    Sheriff Nocco received his bachelor's degree in criminal 
justice and his masters of public administration from the 
University of Delaware.
    Finally, we will receive testimony from Mr. Manuel Peralta. 
Mr. Peralta is the director of safety and health for the 
National Association of Letter Carriers, a position to which he 
was elected in July 2010. Prior to pursuing this position, Mr. 
Peralta held a number of positions within the National 
Association of Letter Carriers.
    Welcome.
    We welcome all of you. We look forward to your testimony. 
Your entire written statements will appear in the record. I ask 
you to summarize your testimony for 5 minutes, and I will first 
recognize Chief Gillespie.
    Thank you very much and you are recognized, sir.

 STATEMENT OF CHIEF AL H. GILLESPIE, EFO, CFO, MIFIREE, NORTH 
 LAS VEGAS FIRE DEPARTMENT, AND PRESIDENT AND CHAIRMAN OF THE 
        BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Gillespie. Good afternoon, Chairman Bilirakis, 
Ranking Member Richardson, and Members of the committee. I am 
Al Gillespie of the North Las Vegas fire department and 
president and chairman of the Board of the International 
Association of Fire Chiefs. The IAFC is a member of the 
Emergency Services Coalition For Medical Preparedness.
    Thank you for the opportunity to represent fire and EMS 
responders today.
    My testimony is based upon my experiences as fire chief in 
several places, including North Las Vegas. As one of our 
Nation's most attractive destinations, we are a high target for 
a terrorism attack. My department has a Homeland Security and 
Special Operations Division. On 9/11 and the days that 
followed, first responders served our Nation with little 
concern for their personal health. We have learned many lessons 
from the terrorist attacks that day and from the anthrax 
attacks later that year.
    With Congress' leadership, we have raised preparedness and 
training in many areas, but there is more work to do. As chief, 
I know my personnel will respond. If you ask me if they would 
respond to a fire or a medical emergency, a pandemic or a 
biological attack, my answer is yes.
    However, numerous studies on the abilities and willingness 
of emergency services personnel to respond to pandemics have 
uncovered some concerns. The Journal of Occupation and 
Environmental Medicine published a study where only 49 percent 
of the participants answered that they would be both able and 
willing to respond to a biological incident. Another study 
published by the Disaster Management and Response revealed that 
only 38 percent of responders stated they would respond if 
their immediate families were not protected. However, 91 
percent reported they would stay on duty if their families and 
themselves were fully protected and vaccinated.
    Mr. Chairman, the fire and emergency services will do all 
we can to protect our communities. We need Congress to do all 
it can to protect our first responders and address a major gap 
in preparedness for a pandemic or biological bioterrorist 
attack. We should not wait for an attack to validate the 
surveys and provide absolute proof.
    Congress should add language during the conference 
committee for the Pandemic and All Hazards Preparedness 
Reauthorization Act that focuses on protecting first 
responders. Otherwise, a major gap in our National preparedness 
system will remain. The IAFC believes Congress should authorize 
the Department of Homeland Security and the Department of 
Health and Human Services to establish and test a voluntary 
anthrax immunization program for emergency first providers. In 
addition, Congress should direct these Federal departments to 
deploy prepositioned antibiotic kits into the homes of 
emergency service providers to protect first responders and 
their families. Extending these protections to first responders 
and their families will improve preparedness and prevent the 
responders from infecting their families.
    I would like to reiterate that any anthrax immunization 
program should be voluntary. The Strategic National Stockpile 
prepositioned regionally includes an anthrax vaccine for 
deployment after attack. However, if there is an attack, 
immediate emergency response will be provided by local 
personnel who are not necessarily immunized. The current plan 
calls for the delivery of countermeasures to States within 12 
hours of an emergency declaration.
    The Federal policy should be changed to set up a pilot 
program that rotates nonexpired potent and safe vaccines from 
the SNS to voluntary emergency responders' immunization 
programs. This would improve preparedness and better utilize 
Federal resources and tax dollars. Additionally, this effort 
could provide real-world practice for distributing 
countermeasures after an attack. As DHS and HHS design the 
program, they can create record-keeping guidelines that ensure 
that first responders who volunteer for the program receive the 
proper and full vaccinations. We have learned that DHS and HHS 
are developing pilot programs, as you have heard, to make 
vaccines in the SNS available as Federal excess property and 
are interested in receiving more information about this 
program.
    In addition, the prepositioned home med-kit program should 
be extended to emergency responders for their families. The 
brave postal workers who volunteer to distribute the 
antibiotics under the National postal model are provided 
prepositioned home med kits covering the individuals and their 
families. The CDC conducted a pilot study on the household's 
ability to maintain the kit. The study found that of 4,000 
households, 97 percent returned their med kits intact. I firmly 
believe the emergency response community can be trusted to 
follow instructions and maintain med kits in their homes. 
Prepositioned med kits into the homes of emergency personnel 
will address unacceptable response time gaps and family 
concerns. DHS and HHS should develop storage and use 
instructions for the kits.
    In conclusion, the fire and emergency response is primarily 
a local responsibility. Our ability to fulfill our mission 
requires proper preparation. Congress must address this current 
weakness and enhance emergency response providers' willingness 
and ability to safely respond and save lives during a 
biological emergency. On behalf of America's fire and emergency 
service leaders, thank you for holding this hearing and the 
opportunity to address the subcommittee. I look forward to 
answering your questions.
    [The statement of Chief Gillespie follows:]
              Prepared Statement of Chief Al H. Gillespie
                             April 17, 2012
    Good afternoon, Chairman Bilirakis, Ranking Member Richardson, and 
Members of the committee. I am Chief Al Gillespie, of the North Las 
Vegas Fire Department located in North Las Vegas, Nevada and the 
president and chairman of the board of the International Association of 
Fire Chiefs. The International Association of Fire Chiefs represents 
the leadership of over 1.2 million firefighters and emergency 
responders. IAFC members are the world's leading experts in 
firefighting, emergency medical services, terrorism response, hazardous 
materials spills, natural disasters, search and rescue, and public 
safety policy. As far back as 1873, the IAFC has provided a forum for 
its members to exchange ideas, develop professionally, and uncover the 
latest services available to first responders. The IAFC is also a 
member of the Emergency Services Coalition for Medical Preparedness. I 
thank the committee for your continued interest in our Nation's medical 
countermeasures and for the opportunity to represent fire and EMS 
responders during today's hearing.
    My testimony is based upon my experiences as a fire chief. As one 
of our Nation's most attractive tourist destinations, we in the Las 
Vegas area are a high target for a potential terrorist attack. In 
response, our department has stood up a Homeland Security & Special 
Operations Division composed of emergency management, tactical medics, 
urban search and rescue (USAR), technical rescue, and haz-mat rescue 
teams.
    Our entire department is staffed by over 200 uniformed and civilian 
employees who provide a great service to our community. Day in and day 
out, I count on each one of these proud and well-trained men and women 
to fulfill our diverse missions. As their chief, I know that they will 
respond rapidly and professionally when called upon for natural and 
man-made disasters.
    Throughout the fire and emergency services as we remembered the 
10th anniversary of 9/11, we marked the sacrifice our men and women 
made that day for our Nation. In the days that followed, the first 
responders continued to serve our Nation with little concern for their 
personal health. We have learned many lessons from the terrorist 
attacks that day and from the anthrax attacks later that year. With 
Congress' leadership and support, we have raised preparedness and 
training in many areas, but there is more work that can be done.
    As I've said, as a chief, I know my personnel will respond. If you 
asked me if they would respond to a fire, the answer is ``yes.'' If you 
asked me if they would respond to a medical emergency, the answer is 
``yes.'' If you asked me if they would respond to a pandemic or a bio-
attack, my answer is ``yes.''
    However, in recent years, numerous published studies have uncovered 
interesting questions and concerns held by responders. For instance, 
the Journal of Occupational & Environmental Medicine published a study 
by Columbia University examining the factors associated with the 
ability and willingness of essential workers to report to duty during a 
pandemic. The study surveyed 1,103 workers from six essential 
workgroups in Nassau County, New York and found that although a 
substantial proportion of participants reported that they would be able 
(80%); much less would be willing (65%) to report for duty. In fact, 
only 49% of the participants answered that they would be both able and 
willing.
    Other studies report similar trends. A study published in a 2007 
issue of Disaster Management & Response surveyed paramedics to examine 
their concerns about responding to a pandemic. In this study, 80% of 
respondents reported they would not stay on duty without protective 
equipment or proper vaccination. If provided protective equipment, but 
not a vaccine, this rate decreased to 61% of respondents reported they 
would not stay on duty. This study also revealed that 91% of the 
respondents reported they would remain on duty if they were fully 
protected. While that response rate is a good sign, it dramatically 
falls to a projected response rate of only 38% if the respondent fears 
that their immediate family is not protected.
    Mr. Chairman, the fire and emergency services will do everything we 
can to protect our communities, but we need Congress to do all it can 
to protect first responders and address a major gap in preparedness for 
a pandemic or a bioterrorist attack in the United States. Currently, we 
only have surveys that suggest a lack of response, but we should not 
wait for an attack to provide absolute proof. Your committee has a 
strong legislative record of addressing gaps in preparedness from 
supporting legislation to allocate the D-Block to public safety to 
authorizing grants and other programs for local governments to increase 
preparedness capabilities. Although the Pandemic and All-Hazards 
Preparedness Reauthorization Act has passed both the House and the 
Senate, I am concerned that unless Congress adds language during the 
conference committee that focuses on protecting first responders, a 
major gap will continue to exist.
    As such, the IAFC believes Congress should task the Department of 
Homeland Security (DHS) and the Department of Health and Human Services 
(HHS) to test and create a voluntary anthrax immunization program. In 
addition, Congress should request these Federal agencies deploy pre-
positioned antibiotic kits into the homes of emergency services 
providers to protect first responders and their families. The DHS and 
the HHS should work together to boost the immunization levels of all 
emergency services providers on a voluntary basis and protect 
responders and their families. Extending these protections to first 
responders and their families (those who live in the responder's home) 
will improve preparedness and prevent the responder from infecting 
their families during times of great National need.
                 voluntary anthrax immunization program
    First, I would like to reiterate that any anthrax immunization 
program should be voluntary. We have heard great debate that an anthrax 
attack is a low-risk threat, due in part to the existence of a vaccine. 
This vaccine is a major tool in the Strategic National Stockpile (SNS), 
maintained by the Centers for Disease Control and Prevention (CDC), 
U.S. Department of Defense (DoD) and other Federal agencies, including 
HHS and DHS. The SNS's cache of antibiotics, chemical antidotes, 
antitoxins, life-supporting medications, IV administration, airway 
maintenance supplies, and medical or surgical items is pre-positioned 
regionally throughout the country and ready to be deployed after an 
attack. However, if there is an attack, immediate emergency response 
will be expected by the public. Under current models, this response 
will be provided by local jurisdictions whose personnel are not 
necessarily immunized. This will result in a major lag in response, 
putting public safety and public health at great risk. The current plan 
calls for vaccines and medicines to be delivered to any State in the 
United States within 12 hours of Federal and State/local declarations. 
Each State then utilizes their plan to receive and distribute vaccines 
and other medicines, which will result in a lengthier time lapse before 
local emergency services and first response are deployed.
    Over time, drugs and vaccines in the SNS expire. While a Shelf-Life 
Extension Program (SLEP) has been developed for select Federal 
stockpiles, other vaccines and drugs are appropriately rotated out of 
the SNS and destroyed. Changing Federal policy to set up a pilot 
program that rotates non-expired, potent, and safe vaccines and drugs 
from the SNS to voluntary emergency responder immunization programs 
would greatly improve preparedness levels and better utilize Federal 
resources and tax dollars. Additionally, such an effort to rotate and 
release vaccines to State and local jurisdictions could provide real-
world practice for the Federal plan to rapidly push out the SNS cache 
after an attack.
    The DHS and the HHS should work together to develop and test a 
voluntary anthrax vaccination pilot program, which ultimately could 
address a gap in preparedness and improve emergency response time to a 
bio-attack. As these departments design the program, they can create 
record-keeping guidelines to assist chiefs ensure their personnel who 
volunteer for the program receive the proper and full vaccinations. In 
addition, utilizing the SNS could lower the costs of standing up such 
an operation while increasing preparedness levels around the Nation.
    We have learned that DHS and HHS are developing pilot programs to 
make vaccines in the SNS available as ``Federal excess property,'' and 
are interested in receiving more information about this type of 
program.
  pre-positioned antibiotic kits in the homes of emergency responders
    Not all bioterrorist attacks can be treated with a vaccine, which 
the SNS cache and other Federal programs take into account. The 
National Postal Model (NPM) utilizes postal workers who volunteer to 
dispense antibiotics after a bioterrorist attack to reduce surge at 
dispensing points. The brave postal workers who volunteer to serve 
their Nation in such a capacity are provided Household Antibiotic Kits 
(HAKs) or med kits. These kits are pre-positioned in their homes and 
provide coverage for the individual and their family. This type of 
program should be extended to pre-position med kits into the homes of 
the emergency responders and further mirror the postal model to include 
the emergency responder's family.
    The United States Postal Service (USPS) along with HHS, local, and 
State public health and law enforcement partners tested the operational 
capability to distribute medical countermeasures through the National 
Postal Model with three Cities Readiness Initiative (CRI) proof-of-
concept drills (in Seattle, Boston, and Philadelphia) and a 
comprehensive pilot in Minneapolis/St. Paul. The CDC also conducted a 
Home Med-Kit Evaluation Pilot Study in St. Louis to examine the 
household's ability to maintain the kit as directed and preserved for 
emergency use. This study found that of 4,000 households, including 
first responders, corporation employees, and community health clinic 
staff, 97% of participants returned their med kit intact at the end of 
the study. While this is just one study, I firmly believe that the 
emergency services community can be trusted to follow instructions and 
maintain med kits in their home. To do so, instructions for the kits 
will have to be developed that address best practices for storage, as 
we know that the bathroom medicine cabinet is one of the worst places 
to store medications due to temperature and humidity issues.
    Pre-positioning med kits into the homes of emergency responders 
will address a time gap in preparedness. During an attack, if first 
responders are waiting for the release of medical countermeasures from 
the SNS to the State and then through public health agencies to 
responders, they have indicated through multiple studies less 
inclination to report for duty. For a response to disasters or attacks, 
this lag time may create an unacceptable situation, and pre-positioned 
med kits for emergency responders and their families are warranted.
    Emergency response is primarily a local responsibility. First 
responders throughout our Nation are rightfully assumed to be able and 
willing to respond to emergencies including disasters and attacks. 
However, we do not send firefighters to a call without the proper 
equipment and training. Our ability to fulfill our missions requires 
proper preparation. Congress must address the current gaps to enhance 
emergency service providers' willingness and ability to safely respond 
and save lives during a biological emergency.
    On behalf of America's fire and EMS leaders, I would like to thank 
you for holding this hearing and the opportunity to address this 
subcommittee. I look forward to answering any questions that you may 
have.

    Mr. Bilirakis. Thank you, chief, for your valuable 
testimony.
    Now I will recognize Mr. Lockwood for 5 minutes.
    You are recognized, sir.

    STATEMENT OF BRUCE LOCKWOOD, DEPUTY DIRECTOR, EMERGENCY 
    MANAGEMENT, NEW HARTFORD, CONNECTICUT, AND SECOND VICE 
PRESIDENT, USA COUNCIL, INTERNATIONAL ASSOCIATION OF EMERGENCY 
                            MANAGERS

    Mr. Lockwood. Thank you. Chairman Bilirakis, Ranking Member 
Richardson, and Members of the subcommittee, thank you for 
giving me the opportunity to discuss the issue of protections 
afforded by medical countermeasures and their distribution from 
the perspective of the emergency services sector. I am Bruce 
Lockwood, deputy director of emergency management for the town 
of New Hartford, Connecticut, representing the Emergency 
Services Coalition on medical preparedness. I am the second 
vice president, IAEM USA, International Association of 
Emergency Managers, which has more than 5,000 members worldwide 
and is a nonprofit educational organization dedicated to 
promoting the principles of emergency management and 
representing those professionals whose goals are saving lives, 
protecting property and the environment during emergencies and 
disasters.
    On behalf of the coalition, I thank you for the time 
devoted to this topic. These are important hearings in 
developing and promoting policies that prepare the Nation and 
ensure our resilience. As James Glassman recently noted, 
bioterrorism remains a current concern and that, compared with 
other defense expenditures, this one on a cost-benefits 
calculation, looks awfully cheap. Budgets are constrained. But 
to cut back on the only truly effective method of fighting 
bioterrorism may be worse than foolish; it could be lethal.
    Since Lawrence E. Tan, chief of emergency medical services, 
New Castle County, Delaware, representing the coalition 
provided testimony in front of this subcommittee on May 2011, 
there has been insufficient progress at protecting the 
protectors at the local level. This lack of progress means 
citizens cannot be guaranteed the continuity of provision of 
emergency services in all areas of the country during a large-
scale biological event. I believe there are some simple, 
immediate, and commercially sound methods to start providing 
protections that would substantially increase our resilience. I 
urge you to express your support for a voluntary anthrax 
immunization program for emergency services and first 
responders.
    To complement this immunization program, I urge you to 
support the immediate development of med kits for all emergency 
services personnel and their households. I believe these are 
primary, necessary first steps in ensuring the continuity of 
emergency services during large-scale anthrax events. These 
steps will mitigate the additional demands on emergency 
services during the event and ensure responders can stay on the 
job without fear their families are unprotected. During 
bioterrorism incidents, protective antibiotics should be 
available immediately to the household members of the 
responders as well as for the responders themselves. The 
critical task established by DHS is that communities develop 
processes to ensure that first responders, public health 
response, critical infrastructure personnel, and their families 
receive prophylaxis prior to the opening of a community pod.
    The simplest and most effective manner to achieve this 
critical task is by combining immunization with prepositioning 
med kits in the homes and workplaces of emergency servicers. 
The coalition supports the Institute of Medicine's 2011 report 
that rejects the idea of distributing antibiotics to the 
general community in favor of targeted population-specific 
distribution. Emergency services are that specific population 
with specific needs and specific circumstances. There is strong 
consistent evidence that we cannot assume emergency services 
providers are confident in their ability to serve in large-
scale events, notably biological events. In no professional 
category can emergency providers be guaranteed to report for 
duty; in cases where they might infect their family members, 
less than half would report.
    I want to draw your attention to an area of acute concern, 
the protection of children. From 2008 to 2011, I served on the 
Congressionally-chartered National Commission on Children in 
Disasters. The commission report states: Congress, HHS, DHS, 
and FEMA should ensure availability of and access to pediatric 
medical countermeasures at the Federal, State, and local level. 
To ensure this happens, stockpiles must specifically be 
developed for children. Further, the children emergency 
services need specific measures to ensure their safety while 
their protectors are deployed in defense of the community. The 
DHS Office of Health Affairs has provided the coalition a 
background briefing on a pilot anthrax immunization program.
    I support the intent of the program, to protect emergency 
services personnel. This use of expiring vaccine could have the 
material benefit of the preparedness of the Nation. We must 
emphasize the protection of the protectors is paramount, not 
the expediency of this stockpile management. The vaccine was 
acquired many years ago. Lack of policy on its use is 
thankfully now being addressed. The Office of Health Affairs in 
its budget hearing before this committee on March 27 requested 
an expansion of their countermeasures program for all DHS 
employees. I believe this program has been formed by careful 
analysis that DHS employees are subject to disproportionate 
threat and require special protection.
    These same employees and their families work alongside and 
are dependent upon local emergency services personnel. The same 
protection should be afforded to all emergency services 
personnel. Having one leg of the three-legged response system 
protected is no protection at all. The Federal Government and 
others have gathered the evidence to show that the antibiotic 
med kits can safely be administered and antibiotic resistance 
is not a scientific concern. For more than 4 years, med kits 
have been provided on a voluntary basis to the U.S. Post Office 
employees and their families. More than 97 percent of these 
kits were returned for renewal unopened. Emergency services 
personnel routinely handle equipment and materials that are 
more lethal and have more profound consequences than the 
antibiotics that would be included in these med kits. Some 
responders carry guns; other administer medications to 
critically ill patients outside of a hospital, and yet others 
work with hazardous materials and life-threatening situations.
    Entrusted with these powers and responsibilities, there is 
no basis for assuming med kits would be widely abused in the 
homes of emergency services. The coalition supports the 
development and the distribution of FDA-approved antibiotic 
countermeasures to protect from anthrax all emergency services 
personnel and their families.
    Private companies are interested in developing these med 
kits, potentially bringing efficiency to the distribution 
administration of a program that could cover all Federal 
workers.
    The prospect of having a protected Federal workforce 
operating alongside an unprotected local emergency services 
personnel is something we should endeavor to avoid. Perceptions 
that there are different classes of responders would undermine 
preparedness. The current methods of medical countermeasures 
have not proven capable of meeting our National goals, 
including the protection of emergency services sector. New 
supplementary approaches are required to ensure those on the 
front line of the response community and their families are 
protected. Pre-event voluntary immunization and the development 
with commercial partners of med kits are part of the next 
generation stockpile effort. The prospect of critical 
infrastructure failure is real and would be compounded by a 
lack of National strategy to protect first responders. The 
protection of protectors and their families has been overlooked 
and must be addressed. I look forward to answering your 
questions.
    [The statement of Mr. Lockwood follows:]
                  Prepared Statement of Bruce Lockwood
                             April 17, 2012
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee, thank you for giving me this opportunity to discuss the 
issue of the protections afforded by medical countermeasures and their 
distribution from the perspective of the emergency services sector. I 
am Bruce Lockwood, Deputy Director, Emergency Management, Town of New 
Hartford, CT, here representing the Emergency Services Coalition on 
Medical Preparedness. I am the 2nd Vice President of the U.S. Council 
of the International Association of Emergency Managers (IAEM), which 
has more than 5,000 members world-wide. It is a non-profit educational 
organization dedicated to promoting the ``Principles of Emergency 
Management'' and representing those professionals whose goals are 
saving lives and protecting property and the environment during 
emergencies and disasters.
    On behalf of the Coalition I thank you for the time devoted to this 
topic because these are important hearings in developing and promoting 
policies that prepare the Nation and ensure our resilience. As James 
Glassman recently noted, bioterrorism remains a current concern, and 
that ``compared with other defense expenditures, this one--on a cost-
benefit calculation--looks awfully cheap . . . budgets are constrained, 
but to cut back on the only truly effective method of fighting 
bioterror may be worse than foolish. It could be lethal.''
    Since last May when Lawrence E. Tan (Chief of Emergency Medical 
Services, New Castle County, Delaware) representing the Coalition 
provided testimony in front of this subcommittee there has been 
insufficient progress in protecting the protectors at the local level. 
This lack of progress means citizens cannot be guaranteed continuity of 
emergency services in all areas of the country during a large-scale 
biological event. I believe there are some simple, immediate, and 
commercially-sound methods to start providing protections that would 
substantially increase our resilience.
    I urge you to express your support for a voluntary anthrax 
immunization program for emergency services and first responders. To 
complement this immunization program I urge your support of the 
immediate development of a med kit for all emergency services personnel 
and their households. Public Health research has shown that the 
availability of medical countermeasures for responders and their 
families may increase their willingness to report for duty. I believe 
these are primary, necessary first steps in ensuring the continuity of 
emergency services during a large-scale anthrax event.
    These steps will mitigate additional demands on emergency services 
during an event, and ensure responders can stay on-the-job without fear 
their families are unprotected. During bioterrorism incidents, 
protective antibiotics should be available immediately for the 
household members of responders as well as for responders themselves. 
The critical task established by DHS is that communities ``develop 
processes to ensure that first responders, public health response, 
critical infrastructure personnel, and their families receive 
prophylaxis prior to POD opening.'' The simplest and most effective 
manner to achieve this critical task is by combining immunization with 
pre-positioning med kits in the homes and workplaces of emergency 
services.
    The Coalition supports the Institute of Medicine 2011 report that 
rejects the idea of distributing antibiotics to the general community 
in favor of targeted, population-specific distribution. Emergency 
services are that specific population, with specific needs and specific 
circumstances.
    There is strong and consistent evidence that we cannot assume 
emergency services providers are confident in their ability to serve in 
a number of large-scale events, most notably a biological event. In no 
professional category can emergency providers be guaranteed to report 
for duty; in cases where they might infect family members less than 
half might report.
    I want to draw your attention to an area of acute concern: The 
protection of children. From 2008 until 2011 I served on the 
Congressionally-chartered National Commission on Children and 
Disasters. The Commission report states: ``Congress, HHS, and DHS/FEMA 
should ensure availability of and access to pediatric medical 
countermeasures (MCM) at the Federal, State, and local levels for 
chemical, biological, radiological, nuclear, and explosive threats.'' 
To ensure this happens stockpiles must specifically be developed for 
children. Further, the children of emergency services providers need 
specific measures to ensure their safety while their protectors are 
deployed in defense of the community.
    The DHS Office of Health Affairs has provided the Coalition a 
background briefing on a pilot anthrax immunization program. I support 
the intent of the program to protect emergency services personnel. This 
use of expiring vaccine could have the material benefit for the 
preparedness of the Nation, but we must emphasize that the protection 
of the protectors is paramount, not the expediency of stockpile 
management. The vaccine was acquired many years ago; a lack of policy 
on its use is thankfully now being addressed.
    I hope that the voluntary anthrax immunization program goals and 
outcomes will be developed with local emergency services personnel, and 
that the true cost of administering the program is part of future 
administration budget requests. Additionally, I hope this new policy 
direction of support for pre-event vaccination spurs HHS and the 
vaccine development community to further research and development 
efforts that will produce a simpler ``next generation'' vaccine that 
does not require five doses for full protection.
    The Office of Health Affairs in its budget hearing before this 
committee on March 27 requested an expansion of their countermeasure 
program for all DHS employees. I believe this program is informed by 
the careful analysis that DHS employees are subject to disproportionate 
threats and require special protections. As our Nation's emergency 
response system is primarily local, the key component of our system is 
left unprotected by a DHS-only focus. The same protections should be 
afforded all emergency services personnel, State, local, and Tribal. 
Having one leg (the Federal) of the three-legged stool (Federal, State, 
and local) response system protected, is no protection at all.
    The Federal Government and other private programs have gathered the 
evidence to show these antibiotic med kits can be safely administered, 
and that antibiotic resistance is not a scientific concern. For more 
than 4 years antibiotic med kits have been provided to volunteers in 
the U.S. Post Office employees and their families. More than 97% of 
these kits were returned for renewal unopened. Emergency services 
personnel routinely handle equipment and materials that are more lethal 
and have more profound consequences than the antibiotics that would be 
included in the med kits. Some responders carry guns; others administer 
medications to critically ill patients outside of the hospital, yet 
others work with hazardous materials in life-threatening situations on 
a daily basis. Entrusted with these powers and responsibilities, there 
is no basis for assuming med kits will be widely abused in the homes of 
emergency services personnel.
    In a country where it is estimated that there are more than 50 
million inappropriate antibiotic prescriptions issued for viral 
infections the prospect of resistance is a public health concern. Pre-
positioning med kits with first responders is a microscopic component 
of overall antibiotic use, representing less than one-hundredth of 1 
percent. Trained personnel in command structures with clinical 
oversight can be trusted, as has been demonstrated daily as well as in 
times of great stress.
    The Coalition supports the development and distribution of FDA-
approved antibiotic countermeasures to protect from anthrax to all 
emergency services personnel and their families, as a critical 
protective measure against anthrax and other agents. Private companies 
are interested in developing these med kits; potentially bringing 
efficiency to the distribution and administration of a program that 
could cover Federal workers (DHS, USPS) and the entire National 
emergency services sector. The prospect of having a protected Federal 
workforce operating alongside unprotected local emergency services 
personnel is something we must avoid, because perceptions that there 
are different classes of responder could undermine overall 
preparedness.
    The current methods of distributing medical countermeasures have 
not proven capable of meeting our National goals, including the 
protection of the emergency services sector. New supplementary 
approaches are required to ensure that those on the front lines of the 
response community and their families are protected.
    Pre-event voluntary immunization and the development with 
commercial developers of a med kit are part of a next generation 
protection and National stockpile effort. The specter of critical 
infrastructure failure is real, and would be compounded by a lack of a 
National strategy to protect first responders. The protection of the 
protectors and their families has been overlooked, and must be 
addressed.

    Mr. Bilirakis. Thank you for your testimony. I appreciate 
it.
    Now I will recognize Sheriff Nocco for 5 minutes.

STATEMENT OF SHERIFF CHRIS NOCCO, PASCO COUNTY SHERIFF'S OFFICE

    Sheriff Nocco. Thank you.
    Chairman Bilirakis, Ranking Member Richardson, committee 
Members, thank you for your time.
    On behalf of the Pasco Sheriff's Office and the citizens of 
Pasco, Florida, I would like to thank Chairman Bilirakis for 
the invitation to testify today on the needs and 
countermeasures for first responders to a CBRNE attack. 
Although some may not believe that this is a clear and present 
threat to our community, those of us who are on the front lines 
of law enforcement truly understand the gravity of the risk. 
Pasco County encompasses 745 square miles and has an estimated 
population of 480,000. This does not include our seasonal 
residents. Pasco is in the heart of the Tampa Bay region in 
proximity to the city of Tampa and the coastline along the Gulf 
of Mexico. What I am about to describe is not unfamiliar to 
many mid- and large-sized agencies but describes the Pasco 
Sheriff's offices.
    The consequences of a CBRNE emergency will stretch our 
response and recovery capabilities. No matter the nature of the 
severity of a CBRNE event, it will be the local first 
responders who will provide the initial operational response 
and oversee crisis management. The Pasco Sheriff's office is 
primary provider of law enforcement services to 89 percent of 
the county and provides specialized services and mutual aid to 
the four incorporated citizens. We are the first responders at 
the forefront of this issue. The State of Florida established 
regional teams to respond to CBRNE incidents. When these teams 
are selected our Sheriff's Office was not designated as part of 
a regional team. If a large-scale CBRNE incident was to occur 
in Pasco County, we would be forced to rely upon regional State 
and Federal specialists for their response components to assist 
with disaster management, investigation, and to provide a 
sufficient level of emergency response. Special advice and 
resources would also be required as part of the recovery 
management phase, including the provision of long-term health 
monitoring, psychological support, building and environmental 
decontamination, re-establishing public confidence, and 
supporting a return to normality.
    Understanding that your time is limited and with the 
opportunity to speak with you today, I would like to take a few 
moments to explain the concerns of the Pasco Sheriff's Office. 
These recommendations and thoughts are intended to convey the 
perspective not only of law enforcement executive but those of 
front-line deputies. Caches of prepositioned personnel and 
institutional medical countermeasures should be afforded to law 
enforcement first responders similar to the process developed 
for postal employees. Law enforcement agencies will be in the 
forefront of operations in a biological disaster, and it is 
critical that our personnel are available and safe to perform 
their duties.
    When initiating a program to distribute the anthrax vaccine 
for first responders in case of a biological attack, please 
allow local law enforcement agencies along with other emergency 
services a voice in making the decision as to who will be 
defined as a first responder. There are many components of our 
sheriff's office that will be in need of this vaccine besides 
our sworn deputies. This would include our communications 
section and medical staff in our jail, just to name a few.
    There are other services in our local government that would 
fully support our operations. If they do not enter a hot zone 
to support us because they are not properly vaccinated, our 
capabilities would suffer tremendously. Local law enforcement 
agencies deserve a seat at the decision table when defining the 
term first responder because we are the immediate boots on the 
ground in any situation. As we are discussing countermeasures, 
we need to mention CBRNE protective suits. Although every law 
enforcement officer should have a protective suit but does not 
at this time, we should immediately ensure our special 
operation units have them. SWAT and SERT teams across the 
country should be the first provided with protective suits and 
equipment to respond to a CBRNE attack. We often think a CBRNE 
attack will be a large-scale disaster affecting a large 
metropolitan area. One of the main goals of a terrorist is to 
maximize fear in a society. What greater fear and easier access 
can be achieved with minimal resources required than for a 
terrorist to attack a school, church, synagogue, or mall with a 
CBRNE component in their operation, such as a dirty bomb. In 
such an incident, this would probably include an active shooter 
and hostage situation. What greater sense of hopelessness could 
we have than if our specialty teams respond very quickly as 
they usually will, stood on the perimeter and not be able to 
advance in a situation because we are not properly prepared to 
go into an active situation that requires protective suits.
    Although this hearing is focused on countermeasures, I 
would be negligent in my duties to you, the deputies I stand 
with, and the citizens we serve if I did not raise the issue of 
the most critical piece of emergency response that is still 
missing today, interoperable communication. The best plans for 
the worst disasters are useless if we cannot communicate with 
each other. Today, 10 years removed from the events of 9/11, we 
are a country that still has not addressed the greatest 
failures, and that is the ability for all first responders to 
seamlessly communicate with each other on a secure frequency.
    In my humble opinion, this should remain our first priority 
for funding, for it is the catalyst for success and the 
response to any incident. The Tampa Bay region is in need of a 
fully interoperable communications system. As Federal dollars 
are distributed for homeland security issues, I would encourage 
you to make interoperable communication a top priority.
    I thank you for your time. I look forward to your 
questions, and may God bless all our first responders.
    [The statement of Chief Nocco follows:]
                   Prepared Statement of Chris Nocco
                             April 16, 2012
    Chairman Bilirakis, Representative Richardson, and Members of the 
committee: On behalf of the Pasco Sheriff's Office and the citizens of 
Pasco County, Florida, I would like to thank Chairman Bilirakis for the 
invitation to testify today on the needs and countermeasures for first 
responders to a chemical, biological, radiological, nuclear, or 
explosive (CBRNE) attack. Although some may not believe that this is a 
clear or present threat for our community, those of us who are on the 
front lines of law enforcement truly understand the gravity of the 
risk.
    Pasco County encompasses 745 square miles and has an estimated 
population of 480,000; this does not include our seasonal residents. 
Pasco is in the heart of the Tampa Bay Region in proximity to the city 
of Tampa and a coastline along the Gulf of Mexico. We are a diverse 
community whose No. 1 economic engine is agriculture. In the near term, 
we anticipate significant growth in areas of finance, education, 
technology, and the health care industry.
    The consequences of CBRNE emergencies will stretch our response and 
recovery capabilities. No matter the nature or severity of a CBRNE 
event, it will be the local first responders who will provide the 
initial operational response and oversee crisis management. The Pasco 
Sheriffs Office is the primary provider of law enforcement services to 
89% of the county and provides specialized services and mutual aid to 
the four incorporated cities--we are the first responders and at the 
forefront of this issue.
    The State of Florida established regional teams to respond to CBRNE 
incidents. When these teams were selected, our Sheriff's Office was not 
designated as part of a regional team. If a large-scale CBRNE incident 
was to occur in Pasco County we would be forced to rely upon regional, 
State, and Federal specialist response components to assist with 
disaster management, investigation, and to provide a sufficient level 
of emergency response. Specialist advice and resources would also be 
required as part of the recovery management phase, including the 
provision of long-term health monitoring, psychological support, 
building and environmental decontamination, re-establishing public 
confidence and supporting a return to normality.
    Understanding that your time is limited and with this opportunity 
to speak with you today, I would like to take a few moments to explain 
the concerns of the Pasco Sheriffs Office. These recommendations and 
thoughts are intended to convey the perspective not only of a law 
enforcement executive, but those of a front-line deputy.
  <bullet> Caches of pre-positioned personal and institutional medical 
        countermeasures should be afforded to law enforcement first 
        responders similar to the process developed for postal 
        employees. Law enforcement agencies will be in the forefront of 
        operations in a biological disaster and it is critical that our 
        personnel are available and safe to perform their duties.
  <bullet> When initiating a program to distribute the anthrax vaccine 
        for first responders in case of a biological attack, please 
        allow local law enforcement agencies, along with other 
        emergency services, a voice in making the decision as to who 
        will be defined as a ``first responder''. There are many 
        components to our Sheriff's Office that will be in need of this 
        vaccine beyond our sworn deputies. This would include our 
        communications section and the medical staff in our jail to 
        name a few. There are other services in our local county 
        government that would fully support our operations and if they 
        do not enter a ``hot'' zone to support us because they are not 
        properly vaccinated, our capabilities would suffer 
        tremendously. Local law enforcement agencies deserve a seat at 
        the decision table when defining the term ``first responder'' 
        because we are the immediate boots on the ground in any 
        situation.
  <bullet> As we are discussing countermeasures, we need to mention 
        CBRN protective suits. Although every law enforcement officer 
        should have a protective suit, but does not at this time, we 
        should immediately ensure that our special operation units have 
        them. SWAT (Special Weapons and Tactics Team) and SERT (Special 
        Emergency Response Team) teams across the country should be the 
        first provided with protective suits and equipment to respond 
        to a CBRNE attack. We often think a CBRNE attack will be a 
        large-scale disaster affecting a large metropolitan area. One 
        of the main goals of a terrorist is to maximize fear in a 
        society. What greater fear and easier access can be achieved 
        with minimal resources required than for a terrorist to attack 
        a school, church, synagogue, or mall with a CBRNE component in 
        their operation, such as a dirty bomb? In such an incident, 
        this would probably include an active shooter/hostage 
        situation. What greater sense of hopelessness could we have 
        than if our specialty teams, who can arrive on the scene 
        quickly, stood on the perimeter not able to advance into the 
        situation because we are not properly prepared to go into an 
        active situation that requires protective suits?
    Although this hearing is focused on countermeasures, I would be 
negligent in my duties to you, the deputies I stand with, and the 
citizens we serve if I did not raise the issue of the most critical 
piece of emergency response that is still missing today: Interoperable 
communication. The best plans for the worst disasters are useless if we 
cannot communicate with each other. Today, 10 years removed from the 
events of 9/11, we, as a country, have not fully addressed one of our 
greatest failures and that is the ability of all first responders to 
seamlessly communicate with each other on a secure frequency. In my 
humble opinion, this should remain our first priority for funding, for 
it is the catalyst for success in the response to any incident. The 
Tampa Bay Region is in need of a fully interoperable communication 
system. As Federal dollars are distributed for homeland security 
issues, I would encourage you to make interoperable communication the 
top priority.
    Thank you for your time and your consideration of these concerns. 
May God continue to bless the men and women of the Pasco Sheriffs 
Office and all first responders throughout America.

    Mr. Bilirakis. Thank you. Thank you very much.
    Now I will recognize Mr. Peralta for 5 minutes.

  STATEMENT OF MANUEL L. PERALTA JR., DIRECTOR OF SAFETY AND 
        HEALTH, NATIONAL ASSOCIATION OF LETTER CARRIERS

    Mr. Peralta. Good morning, Chairman Bilirakis, Ranking 
Member Richardson, and the Members of the subcommittee.
    My name is Manuel Peralta, and I am the director of safety 
and health at the National Association of Letter Carriers. It 
is an honor to provide information about how letter carriers 
are bolstering our National security by participating on a 
voluntary basis in a program to distribute medicines to 
Americans in the event of a biological attack. I will be brief 
because you are busy and because we have mail to deliver. Six 
days a week, letter carriers deliver mail to more than 150 
million homes and businesses throughout this country, and today 
is no exception.
    In December 2003, just 2 years after the worst terrorist 
attack in American history, President George W. Bush asked the 
United States Postal Service to consider delivering antibiotics 
to residents of large metropolitan areas following the release 
of a biological agent. President Bush and his homeland security 
advisors knew that no other entity had a network capable of 
carrying out such a mission. He knew further that letter 
carriers who are regularly named by the American people as the 
most trusted Federal employees, who are ideally suited for such 
a complex task.
    On February 18, 2004, the Secretaries of Health and Human 
Services and Homeland Security, along with the Postmasters 
General signed a memorandum of agreement to establish policies 
and procedures. The result is the City Readiness Initiatives 
Postal Plan, a Federal program led by HHS and designed to help 
major cities respond to a large-scale public health emergency 
and avert mass casualties by dispensing antibiotics to the 
population within 48 hours. President Obama confirmed the value 
and the bipartisan nature of this postal initiative through his 
Executive Order of December 2009. This order enacts 
recommendations inspired by the September 11 commission. Both 
Presidents responsible for protecting the American people knew 
that no one goes to every address in America 6 days a week, and 
no one knows the neighborhoods, like letter carriers.
    To date, six communities have become involved: Seattle, 
Minneapolis, Louisville, Philadelphia, Boston, and San Diego 
County with the cities of Vista and San Marcos. Each program 
involves intensive planning and the participation of various 
Federal agencies. But one constant is the role of letter 
carriers. We look upon this not as a chore but as another form 
of service. The Nation's letter carriers, who I am privileged 
to serve as an elected officer of the NALC take seriously our 
role embedded in the Constitution of providing universal mail 
service to every corner of this country, binding this vast land 
together and unifying individual communities; all this without 
a dime of taxpayer money.
    We take equal pride in serving our communities in other 
ways, whether conducting the Nation's largest single-day food 
drive, as we do every May, watching out for the elderly on our 
routes, rescuing someone who has fallen or taken ill, locating 
a missing child, putting out a fire, or even stopping a crime.
    Service and protection come naturally to letter carriers, 
one-quarter of whom are military veterans and who are glad to 
volunteer for their country once again, and all of whom have an 
affinity for the people in the neighborhoods they serve. The 
timing of today's hearing is fortuitous because of the exercise 
held last Wednesday in Louisville, which involved a 
contaminated truck containing a biological agent and the 
response of Federal, State, and local officials. Allen Harris, 
president of NALC Branch 14 in Louisville, reports with pride 
that several officials went out of their way to praise the 
dedication and energy with which letter carriers are engaged in 
this effort and that 60 percent of the letter carriers in 
Louisville volunteered, 323 men and women. Allen, himself an 
Air Force veteran, attributes this in part to the large number 
of military veterans in his branch. As Brother Harris puts it, 
they already know what it is to serve their country. More 
broadly, he says, the extraordinary level of participation 
reflects the sense of commitment all his letter carriers have 
to the neighborhoods they serve.
    ``It just makes sense; it makes you feel very proud,'' 
Allen said, ``because you are doing something that is going to 
help the community. I have been on my route for 28 years. I 
have seen kids born, go to college, come home, and start their 
families.''
    Under the Louisville plan, letter carriers would deliver 
medicines to 750,000 people. Letter carriers would load 670 
cases of medication into 2-ton vehicles from a depository to 
which the Federal Government would fly the medicines. Every 
home would receive two bottles of medication containing 20 
pills apiece along with a flyer. I might add, this type of 
planning is nothing new to the Postal Service or to letter 
carriers. Indeed, it is one of the factors that led a recent 
British study to name the Postal Service as the world's most 
efficient system. In fact, Cities Readiness Initiative is one 
more example of the value of the unique universal network that 
it is and must remain the hallmark of the United States Postal 
Service.
    In closing, let me say that we are fully aware of the 
solemn responsibility we bear as the foot soldiers for this 
critical homeland security program, whether in Boston, 
Philadelphia, Minneapolis, or elsewhere. It is a duty we 
readily accept. We appreciate the confidence placed in us by 
Presidents and Homeland Security officials from both parties. 
We are continually training and preparing to justify that 
confidence. Thank you for your attention and thank you for your 
service to our country.
    [The statement of Mr. Peralta follows:]
              Prepared Statement of Manuel L. Peralta, Jr.
                             April 17, 2012
    Good morning, Chairman Bilirakis, Ranking Member Richardson, and 
other Members of this very important subcommittee. My name is Manuel L. 
Peralta Jr., and I am the director of safety and health at the National 
Association of Letter Carriers.
    It's an honor to have the opportunity to provide you with some 
information about how letter carriers are bolstering our National 
security by participating--on a volunteer basis--in a program designed 
to provide medicines to Americans in the event of a biological attack.
    Our participation in today's hearing is timely, because just last 
week we conducted a table-top exercise for the Cities' Readiness 
Initiative in Louisville, Kentucky.
    I will be as brief as I can, so that panel has the appropriate time 
needed to ask questions--and also because there is mail to deliver 
today. Six days a week, the letter carriers of the U.S. Postal Service 
deliver mail to more than 150 million homes and businesses throughout 
this country, providing the world's best and most affordable delivery 
service--and today is no exception.
    First, let me provide an historical overview of our involvement 
with this program. In December 2003, just 2 years after the worst 
terrorist attack in American history, President George W. Bush asked 
the U.S. Postal Service to consider delivering antibiotics to residents 
of large metropolitan areas during catastrophic incidents--specifically 
the outdoor release of a biological agent.
    President Bush and his homeland security advisers knew that no 
entity besides the Postal Service had an existing network in place that 
would be capable of carrying out such a mission. He knew further that 
letter carriers, who among other things are regularly named by the 
American people as the most-trusted Federal employees, were ideally 
suited for such a critical and complex task.
    On Feb. 18, 2004, the Secretary of Health and Human Services, the 
Secretary of Homeland Security and the Postmaster General, signed a 
memorandum of agreement to establish policies and procedures for U.S. 
Postal Service distribution of oral antibiotics in response to a 
biological terrorism incident.
    The result is the Cities' Readiness Initiative--a Federal program 
led by HHS and designed to help major U.S. cities increase their 
capacity to respond to a large-scale public health emergency and avert 
mass casualties by dispending oral antibiotics to the population within 
48 hours.
    President Obama further confirmed the value--and the bipartisan 
nature--of this initiative, through his Executive Order of Dec. 30, 
2009, which directed the establishment of a Federal capacity through 
the U.S. Postal Service for the timely residential delivery of medical 
countermeasures following a biological attack. This Executive Order 
enacts recommendations made by the Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism, an outgrowth 
of the September 11 Commission.
    Both Presidents, responsible for protecting the American people, 
knew no other agency is capable of doing this--because no one else goes 
to every address in America, 6 days a week. Further, no one knows the 
neighborhoods like the letter carriers.
    To date, seven cities in six metropolitan areas have become 
involved in this effort--Seattle, Minneapolis, Louisville, 
Philadelphia, Boston, and San Marcos and Vista both within the county 
of San Diego. They are in varying stages of preparation. Each program 
involves a great deal of planning and the participation of a variety of 
State, local, and Federal agencies--but one constant is the role of the 
letter carriers, who are essentially where the rubber hits the road.
    We are glad to volunteer for this mission, and to accept the somber 
responsibility that comes with it. We look upon this not as a chore, 
but as another form of service. The Nation's letter carriers, whom I am 
privileged to serve as an elected officer of the National Association 
of Letter Carriers, take seriously our role, embedded in the 
Constitution, of uniting the country by providing universal mail 
service to every corner of this country, binding this vast land 
together and unifying individual communities. All this, without using a 
dime of taxpayer money.
    And though it is not a term and condition of our employment, we 
take equal pride in serving our communities in other ways as well, 
whether conducting the Nation's largest single-day food drive, watching 
out for the elderly on our routes--or occasionally finding ourselves in 
the position of rescuing someone who has fallen or taken ill, locating 
a missing child, putting out a fire, or even stopping a crime.
    In that spirit, we are particularly gratified to be able to serve 
our county in the program I am discussing today. It is a plan to which 
we are committed and for which we are ready. Why is that? Because 
service and protection come naturally to letter carriers, one-quarter 
of whom are military veterans and are glad to volunteer for their 
county once again--and all of whom have an affinity for the 
neighborhoods they serve, their customers, and the families they watch 
grow over the years.
    I mentioned that the timing of today's hearing is fortuitous, 
because of the exercise held just last Wednesday, which made Louisville 
the second city, after Minneapolis, to be formally designated as a 
pilot city in the Cities' Readiness Initiative. This followed the March 
21 signing ceremony at Louisville City Hall with top officials. The 
president of NALC Branch 14 in Louisville, Allen Harris, took part in 
the 7-hour exercise, which involved a contaminated truck containing a 
biological agent. He did so along with Federal, State, and local 
officials from the FBI, county sheriff's departments, city and suburban 
health departments, postal inspectors, police departments, Health and 
Human Services, and other agencies.
    Allen reports, with much pride, two things I will share with you. 
One is that a number of these officials went out of their way to praise 
the dedication and energy with which the letter carriers are engaged in 
this effort. The second is that 60 percent of the letter carriers in 
the Louisville branch of the National Association of Letter Carriers 
signed up--323 men and women out of 573--to undergo the training, and 
deliver the medicines if and when needed. That is in part due to the 
large number of military veterans in the branch, according to Allen, 
himself an Air Force veteran.
    As Brother Harris put it, ``They already know what it is to serve 
their country.'' More broadly, he says, the extraordinary level of 
participation is attributable to the sense of commitment all his letter 
carriers have to the neighborhoods they serve.
    ``It just makes you feel very proud,'' Allen said, ``because you're 
doing something that's going to help the community. I've been on my 
route 28 years. I've seen kids born, go to college, come back home to 
start their families. It's almost like you're a part of their family.''
    Already, Branch 14's union hall has been used some 10 times by 
Louisville authorities for training and meetings, because it can 
accommodate up to 220 people. Under the Louisville plan, letter 
carriers would deliver medicines to 750,000 people in 225,000 
households in the city and suburbs in the event of a biological 
incident. Letter carriers would load 670 cases of medication into each 
of their 2-ton vehicles, from a depository to which the Federal 
Government would fly the medicines. There are 48 bottles of medicine 
per case. Every home will receive two bottles of medication containing 
20 pills apiece, along with a flyer. That has two advantages--it makes 
distribution simpler and faster, and it also staggers the times 
residents would return to get more medicines.
    I might add that this type of planning is nothing new to the Postal 
Service or to letter carriers--indeed, it is one of the factors that 
led a recent British study from Oxford to name the U.S. Postal Service 
the most efficient in the world. In fact, the Cities' Readiness 
Initiative is one more example of the value of the unique universal 
network that is--and must remain--the hallmark of the United States 
Postal Service.
    In closing, let me say once again that we are fully aware of the 
awesome nature of the responsibility we bear as the foot soldiers for 
this critical homeland security program, whether in Louisville or 
Boston, San Diego or Minneapolis, or elsewhere. It is a responsibility 
we readily and fully accept. We appreciate the confidence placed in us 
by Presidents and homeland security officials from both parties--and we 
are continually training and preparing to justify that confidence.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you may have.

    Mr. Bilirakis. Thank you. Thank you for your service to our 
country. Also I thank you for your testimony and thanks for 
your patience. I will go ahead and get started. I will 
recognize myself for 5 minutes for questions.
    For all the witnesses, I am interested in your use of rapid 
diagnostic capabilities. Good diagnostics, whether through 
physical exam or through a piece of technology, are 
indispensable to providing appropriate care, in my opinion. 
Diagnostic devices are also considered medical countermeasures 
by BARDA. How important are rapid point-of-care diagnostics to 
the first responder community? Would it be useful if you had 
quick, easy-to-use diagnostics or biological or chemical 
threats to help inform your response? Whoever would like to go 
first.
    Chief Gillespie. Mr. Chairman, thank you for the 
opportunity to address that question.
    I have got to say, it is extremely important for us to use 
all the tools that we have available to us to help determine 
the safety of our citizens and the safety of our responders. I 
can say that what has happened over the last 20 years, last 10 
years particularly, from my point of view in the fire services 
is we have made huge strides. We have made tremendous leaps in 
our ability to recognize a problem and how we deal with that. 
Much of that happened post-9/11, and we made a lot of changes 
in how we approach a situation. We know that we can't rush into 
every particular situation. The sooner we can get in, the 
sooner we can get in, the sooner we can deal with the problems. 
So, with immediate diagnostic equipment, whether it be skills 
or technology, it certainly is important to us. I will give you 
a quick example: We responded in the Las Vegas valley to a 
ricin incident. Maybe you didn't hear about it. That is because 
none of the first responders, none of our public were injured 
or killed because of that particular incident. Because our 
first responders were able to determine that they had a serious 
problem that may be of a chemical-biological type-nature. The 
person who was doing that died from their exposure to the 
products but none of our responders were because they were able 
to diagnose this early on and keep from becoming contaminated 
at the scene.
    Sheriff Nocco. Thank you, Chairman.
    I concur. Any time we can be proactive instead of reactive 
is going to make us safer. Going back to anecdotes, our 
agricultural unit has detector devices out there in the field, 
and we were able to detect--it was actually a dentist office 
that had abandoned their location. However, with the X-ray 
machine, there was small chemicals or radiological materials 
still left behind. The place had been abandoned. Because of the 
detection devices, we were able to be proactive out there and 
remove it.
    So I concur that anytime we can be proactive out there, it 
is going to be beneficial for us. Along with what the chief 
said, it is the training aspect of it. The more training we can 
provide our first responders, the better they are going to be. 
We can give them all the equipment they need, but it is the 
training that is going to make them safer.
    Mr. Bilirakis. Would anyone else like to respond?
    Mr. Lockwood. Yes. Just as the technology with your cell 
phone, the devices and items that we utilize continually change 
and the technology continues to improve. As we continue to 
watch grant dollars continue to dwindle, it becomes more and 
more difficult to stay current with those technologies because 
they are not exactly cheap as they roll out the new technology. 
So I think that those diagnostics, whether it be the training 
or the new tools that we are provided, we have to be looking 
at, are they being considered sustainment costs? Or are they 
being considered a new technology that allows us to do a better 
job of meeting the needs of our communities?
    Mr. Bilirakis. Thank you. All right. We will move on.
    This question is for Chief Gillespie. Your testimony cites 
some important concerning studies about the availability of the 
first responder workforce during a pandemic. One study you 
mentioned found that only 49 percent of survey participants 
would be both willing and able to respond, and the other found 
that 80 percent would not report for duty in the absence of 
personal protective equipment or vaccination. We shouldn't have 
to ask responders, in my opinion, to make a choice between 
doing their job and protecting their own health and that of 
their families.
    Given that antibiotics and vaccines are plentiful, it 
should be a fairly easy to lift to help responders--and I know 
you all agree--to achieve the peace of mind they need to help 
them do their job. Why has this taken so long? What is your 
opinion on this? What do you think the barriers to reaching 
this desire in State are, and is it a matter of cost? I think 
not. Or is it a matter of culture? I would like to hear from 
Chief Gillespie and anyone else wishing to respond.
    Chief Gillespie. Mr. Chairman, thank you for the question.
    What do I think the cause of this is? From my opinion, 
probably over-analyzation.
    I have got to say that our people very much understand the 
nature of the problems that we have out in the field. If 
somebody has the ability to provide us a tool to perform our 
jobs, to be able to protect our citizens and protect ourselves 
and our families, I just don't understand why there would be 
any reason to delay this. I just don't get that at all.
    I am from the Las Vegas area. So I am going to use a Las 
Vegas analogy here for you. Every day that goes by is going to 
have a cost to it. It is like rolling the dice. You roll the 
dice in Vegas, and sometimes you win. But sometimes you lose. 
Every day that goes by, we are taking that chance that our 
first responders won't need those things that are available to 
us today. So it is very frustrating when we hear that it is 
there. It is available. It just hasn't been delivered to us 
yet.
    Mr. Bilirakis. Appreciate it. If anyone else wishes to add 
something? Okay. Thank you.
    I will now recognize our Ranking Member for 5 minutes or 
so. We are going to try to do a second round.
    Ms. Richardson. Mr. Peralta, it is good to see you again, 
sir, as always. Can you describe for us--I thought it was 
interesting you didn't mention in your testimony--the potential 
impacts that are being imposed on the Postal Service, how you 
would view those impacts or changes, how that could impact your 
ability to effectively participate in this model?
    Mr. Peralta. Example: The elimination of door-to-door 
delivery letter carriers would no longer be able to deliver the 
product, the medicine, to your home. As there is some 
legislation that proposes to have centralized delivery at the 
end of the neighborhood. If I am delivering the product to you 
at your home, you don't have to leave your home to get that 
medication. If I have to put it at the end of the street in a 
cluster box--picture yourself in our gray years of life taking 
that walk, fearful, wondering what is going on, to get my meds. 
Put it at my doorstep. Let us serve America at your porch.
    Ms. Richardson. Thank you, sir.
    My next question also for you is, the anthrax attacks in 
2001 were particularly harmful for many of our postal workers. 
I was curious, are there any lessons learned that you have been 
able to take that would also apply to this program as well?
    Mr. Peralta. In 2001, one of my predecessors, Al Ferranto, 
was the director of safety and health. At that time, the Postal 
Service very actively got involved in briefing the NALC, 
keeping the NALC informed and in the loop as to what was going 
on and literally trying to make sure that we are not exposing 
ourselves to any type of a hazard, nor the American people to 
any type of a hazard.
    We needed to make certain that the mail was safe to 
deliver. As a result of that, there has been a lot of 
technology applied, radiation to protect against the anthrax in 
the mail. The lesson learned is, we have to work together, all 
of us, to protect America.
    Ms. Richardson. Thank you, sir.
    My last question here for you: Are there any resources or 
additional support that you would feel that the letter carriers 
would need to fulfill this assignment?
    Mr. Peralta. I think it leaves the question to be answered 
by the experts. How more do we protect the first responders? 
The speakers at this table, this panel, speak very importantly 
of the need to protect those first responders. Whatever is 
learned needs to be passed on to all those first responders.
    Ms. Richardson. Are you guys at all currently included in 
any first responder discussions?
    Mr. Peralta. We are involved in our element of the plan. We 
are briefed as to where we are going, what new cities we are 
rolling it out in. Then the membership is informed that we are 
not going to be put at risk as first responders until the 
experts detect that it is safe to start the delivery of the 
antibiotics to the community.
    Ms. Richardson. But I mean, other than this particular 
program, have the letter carriers ever been included in first-
responding situations or----
    Mr. Peralta. I apologize. I cannot answer that. I don't 
have a recollection off the top of my head.
    Ms. Richardson. Okay. If you could supply that to the 
committee, that might be helpful.
    My next question is for Mr. Lockwood. Over the past 2 
years, Homeland Security grant programs have been dramatically 
reduced. Can you discuss how cuts to the grant funding has 
affected the first responders' ability to do training and 
acquire necessary equipment? Because that will be something 
that we are going to be voting on very shortly.
    Mr. Lockwood. Obviously, any time we lose any funding, it 
makes an impact. But in the first years of the grants, 
obviously, we saw a rollout of a lot of equipment. The issue is 
that, as I stated before, we have the issues of maintenance or 
replacement of equipment that we have purchased over the course 
of time. Then there is the additional training that goes along 
with that. Some of the areas that we have provided equipment 
and training to are not things that we necessarily do on a 
daily basis so that the currency requirements for training is 
more because it is not a daily hands-on activity that somebody 
may be dealing with. So we are constantly having to try to make 
decisions about how to do more with less.
    Ms. Richardson. Okay. Thank you for your answer.
    My last question would be to the four of you. Is there 
anything that you would like--we have the ability after a 
hearing to forward additional questions to the panel. Are there 
any questions--I always hate when we have two panels because 
you don't really get an opportunity to say, wow, you know, they 
should have asked this question. Is there any question that you 
would like us to ask Panel I that would be helpful on your 
behalf?
    We can start here with you, Chief Gillespie.
    Chief Gillespie. Thank you, Mr. Chairman and Ranking 
Member. I would say--not that I have a question for the panel. 
We have already stated forth the charges that we need help from 
you, as Members of Congress, to provide services to our 
citizens.
    But I want to say thank you, also. You end up listening to 
a lot of folks here many times, I am sure just asking. I want 
to say thank you for the opportunity that I have to be here and 
be participatory in some of the major things that Members of 
Congress have done for the emergency services. I will state 
specifically the D band broadband network issue. Thank you so 
much for what happened with that. You heard some of our 
problems down here down the road on interoperability. That is 
just a small tip of the iceberg. Thank goodness we have the 
opportunity to deal with it, though. It is going to take a 
little time. We have got to plant the trees to make the shade 
for later in the future, but at least we are on the right 
track. Thank you for that.
    Ms. Richardson. Sure, thank you.
    Mr. Lockwood. Mine I guess is not so much a question but a 
statement. I would like, as we look at this specific topic 
going forward with medical countermeasures, to get the message 
across that not necessarily does one size fit all and that we 
have got to be open to new methodologies and processes that 
will allow us to move forward and advance. We find that there 
are days where we are so ingrained in the processes that we are 
in, that we struggle with trying to find better ways to do 
things.
    Ms. Richardson. Thank you.
    Sir, you are up for your first-year anniversary in the job.
    Sheriff Nocco. Yes. It has been a long year. One comment. 
Mr. Polk brought up a very good point. He said, a voluntary 
program. There is the anthrax vaccine. It is five shots over 18 
months. I would encourage that to continue to be voluntary. 
There was a study done that--Florida was included in the 
study--that 64 percent of law enforcement officers are willing 
to take this vaccine. I think as long as it is voluntary--there 
is a lot of education done for it--then we will get even more 
participation. So I would think that when you mandate things, I 
think people get scared and they get reluctant. When it is a 
voluntary program, people are more willing, and I think the 
educational component is huge for the success.
    Ms. Richardson. Thank you.
    I yield back.
    Mr. Bilirakis. Okay. I will recognize myself for 5 minutes 
or so. You are welcome to stay. I think we still have some time 
for some more questions.
    This one is for the sheriff, your county being right 
outside of Tampa. As a major city and one that receives funding 
through the Cities Readiness Initiative, Tampa no doubt has 
plans that it has exercised to receive National medical 
supplies and dispense them to the public. Given your proximity 
to Tampa, has the Department of Health and Human Services 
engaged you in any of this planning? Do you feel that your role 
and the expectations of your personnel are clear when it comes 
to distribution and dispensing of medical countermeasures in or 
around the Tampa area?
    Sheriff Nocco. Thank you for your question, Chairman. To be 
blunt about it, our members are not in the circle. I can tell 
you, our emergency operation center, which is not under the 
Sheriff's Office, may be involved. But directly our Sheriff's 
Office has not been at the table. The city of Tampa and the 
county of Hillsborough are doing a very good job putting our 
efforts together.
    As we proceed, the Pasco Sheriff's Office is a willing 
participant. The city of Tampa is utilizing our our resources. 
We are sending our people down for possible demonstrations. We 
are sending them for mass arrests. We are working that in 
conjunction. But as to a distribution, if an outbreak was to 
occur, no. I can also tell you very bluntly that our deputies 
do not have the equipment to respond if such an incident 
occurred, God forbid an anthrax or any type of chemical or 
biological attack occurred while our deputy is on the front 
line, they would not have protection.
    Pasco County, as you know, is literally 10 minutes outside 
the city of Tampa at points. We have major critical components 
that are going to be involved with the RNC that are secondary 
locations, and unfortunately, we do not have the equipment nor 
have we received any of the funding. We are working with the 
city of Tampa. However those types of conversations we have not 
been a part of.
    Mr. Bilirakis. Well, that is unfortunate. We have to do 
something about that.
    This next question is for Mr. Lockwood. I am interested in 
your perspective on the consolidation of grant programs and the 
impact that it has on projects with a medical focus, such as 
those previously funded by the MMRS. Then, has your ability to 
maintain and sustain the medical preparedness capabilities you 
previously attained using grant funds been impacted? What is 
the proper balance, in your opinion, between infusions of 
Federal versus State or local funding? I know you have a lot of 
interest in this.
    Mr. Lockwood. Well, MMRS is clearly one of the areas that 
supports us specifically in the first responder community with 
the--at least in our area, we have some prepositioned 
countermeasures that are available to our first responders. The 
problem with those, obviously, become--there is a replacement 
cost. There is a cycle where those medications will expire, as 
with all the other medications.
    I think that one of the other issues is that as this 
consolidation process takes place, it is more like a block 
grant program. While they will say it is more flexible, it is 
actually less flexible in the sense of we see a degrading of 
some of the programs we have been able to put together. There 
will be programs in my anticipation across this country that 
have been built and, at the end of this, may no longer be I 
believe to sustain their operations based on just the way the 
new structuring has taken place related to the consolidation.
    I do also want to point out that there is the 16 grants, 
but there is also the HHS grants for public health 
preparedness, et cetera. One of the problems we have had in 
this process is the coordination between the two of those. We 
understand that that is being taken care of in this next grant 
cycle. We may have one guidance under DHS aside telling us we 
need to do something, but then there is conflicting language 
related to what is in the CDC public health preparedness or 
ASPR grants.
    But I do see that going forward, we are going to continue 
to meet challenges in our ability to meet not only the first 
responders' abilities from a medical countermeasures 
standpoint, but I think that we are going to have these same 
problems related to community-based programs.
    Mr. Bilirakis. Thank you.
    Chief, in the absence of a dedicated med kit, one option to 
provide pre-event planning for the first responders is to 
establish a dedicated local cache or stockpile. Is a cache 
approach a decent alternative to med kits? Have you established 
such a cache in your city? Anyone else want to respond on this, 
your feelings on this? What do you think, is it a good 
alternative to a med kit?
    Chief Gillespie. Mr. Chairman, first of all, we have not 
established one in our area. Second, it is probably better than 
what we have, which is not being included in the first tier. 
But certainly far down the list of being able to be utilized 
and keep our first responders in the job, responding, knowing 
their families and themselves are protected immediately. As you 
have heard, there is always a delay out there. One of the 
things that we have in emergency services is a lack of time. 
Time is important to us. That is how we measure our success in 
many ways is how quickly we can respond and how effectively we 
respond.
    Every second that goes by, when we have to go chase down 
something or we have to go to a different location, it makes it 
more difficult for us to meet those time requirements. So while 
it is better than not having something available, it is not an 
ideal situation for us.
    Mr. Bilirakis. Thank you.
    Sheriff.
    Well, whoever would like to respond.
    Mr. Lockwood. I just wanted to state that we do have some 
prepositioned cache in the greater Hartford area. But one of 
the things that I have talked about this on more than one 
occasion is the three-event theory; that is, there is the 
event. Our secondary event is our ability to distribute our 
medications under that guidance that we were given to first 
responders before opening the public pod. Then there is the 
third tertiary event of actually distributing to our general 
public.
    The problem becomes--is that there is a 12-hour lag time 
most likely for those prepositioned medications to get to us, 
to get them out. Secondarily, now we have a resource issue of 
having to distribute our medications at the time of need to our 
first responders, therefore slowing the response to the third 
event. If we were able to preposition the medications in these 
med kits in personnels' homes, we wouldn't do away with what we 
would greatly reduce that secondary event of having to try and 
distribute our medications, our countermeasures to our first 
responder community, therefore allowing us to get in a more 
rapid approach to be able to get to the general community in a 
timely manner. So while prepositioning is an option, and it is 
definitely better than what the current alternatives may be, 
the ability to close our gap to be able to get to the community 
as a whole would be best served by having the prepositioned 
kits.
    Mr. Bilirakis. Sheriff.
    Sheriff Nocco. Mr. Chairman, I agree.
    There is a term that is used, keeping your head in the 
game. There is no doubt first responders are going to go in and 
risk their lives. However, there is another side of it. We are 
all human, also. We have families; we have children that we 
care about. When these situations occur, it is not going to be 
an 8-hour shift, then you go home. These are going to be days 
and days on end. We may never get back to our houses. So to 
ensure that our families are taken care of, that we don't have 
to worry about their well-being, it is going to allow first 
responders to be better in their duties. It is going to make us 
better as an agency in our response to the community. So if we 
can have these caches in the houses, I absolutely agree, that 
is the best way to do it. If it is going to be prepositioned in 
our police stations and our fire departments and fire stations, 
that is better than nothing, as the Chief said. However, 
keeping them in our houses, being able to explain to our loved 
ones how to use them in case we are not home when a disaster 
occurs, I can tell you, it will allow first responders to be 
better in their duties.
    Mr. Bilirakis. Sheriff, a question for you and again, 
anyone else who wants to chime in. Security is a concern 
throughout the medical countermeasures dispensing process, 
whether in traditional pods or by going door-to-door with 
letter carriers. What support, financial or otherwise, does 
local law enforcement want from the Federal Government in order 
that you can provide the needed support to postal, public 
health, and other authorities involved with dispensing these 
drugs in an emergency? How can we help you? What support do you 
need from us?
    Sheriff Nocco. God forbid this ever occur, it is not going 
to be a situation that would be isolated just to our county. As 
I can imagine, something like this would affect a whole region, 
possibly a State. Immediately, our resources would be drained. 
We would have to call in the National Guard. We would have to 
call in other resources to go with the mail carriers as they go 
house to house. I mean, I can't tell you how many mail carriers 
we have in Pasco County. But with a population of over 500,000 
roughly, including our seasonal residents, I can tell you right 
now that we wouldn't have enough deputies to walk with them all 
because we have other concerns. You are going to have traffic 
issues. You are going to have security issues. You may have a 
possible crime scene that we are taking care of.
    When most of the time people think of a terrorist incident, 
it is one location. Now they have two or three locations 
possibly where they are going to try to spread us as thin as 
possible. The other agencies where we try to ask for mutual 
aid, they are going to be stretched just as thin. So I can tell 
you most importantly what we would need is more personnel. More 
personnel, the better. Then along with personnel, we are going 
to need resources. You know we are going to need food and 
water. We are going to need to sustain ourselves. So the 
initial is personnel, send us bodies. After that it is going to 
continue to say, we need more food. We need clothing, we need 
things to keep us going for days and weeks.
    Mr. Bilirakis. Thank you.
    Last question for Mr. Lockwood. If you were to implement a 
voluntary anthrax vaccine program in your jurisdiction, this 
would require a well-organized approach and good occupational 
health infrastructure to achieve, given the current five-dose 
regimen over the 18 months. You mentioned that you touched on 
this. What options are in place to do this?
    Mr. Lockwood. Well, I think that no communities are the 
same. So I can tell you that in most of our larger communities, 
we have occupational health within our municipalities or our 
governments that would most likely be able to--once given the 
guidance and the established protocols on how the program would 
be implemented, I am sure they would be able to implement it. 
But just like with anything else, we have local emergency 
management offices. There may be one individual with a 
community of 3,000 people, and we have some that have an 
emergency management office with 1 million people. I can't 
answer the question from across the country as to how they 
would all implement it. But I would think that just like you--
here would be my best answer: In those areas where you have 
given us the tools and we have been able to be successful with 
them, if you are able to give us this tool, I am sure we will 
find a way to be successful with it. I don't think that should 
be the stumbling block to this. Because I think that no matter 
what, we would be able to get those programs in place because 
it is really about protecting the people that work for us.
    Mr. Bilirakis. Anyone else want to respond to that? First 
of all, I want to thank you all for being so blunt and frank 
and giving us all this information. This was very, very 
informative. But also I wanted to give you an opportunity to 
come up with--just like the sheriff talked about, the 
interoperability and then we discuss the grant programs. 
Anything else that should be on our radar screen? Any 
priorities of yours? How can we help you? I wanted to give 
everyone an opportunity to respond.
    Chief Gillespie. Mr. Chairman, thank you for the 
opportunity.
    One of the things that you asked here was, how could you 
administer a program? I can tell you that the International 
Association of Fire Chiefs is a 501(c)(3) organization that has 
had the opportunity to work on major programs like this across 
the country dealing with our entire country on intra-State 
mutual aid systems and developing programs to get them all tied 
together. This would be a great opportunity for something like 
our international organization to be involved in and help get 
this delivered out to the members of our communities, our fire 
service communities, around the country and our other 
responders.
    And I would also like to say that if you are looking for 
beta test groups, I can tell you that the Las Vegas valley is 
ready to help be beta test group for your anthrax vaccines and 
for your med kits. Believe me, we are ready. We believe we are 
on the front lines of and in the sights of the terrorists and 
anything we can do to protect our people out there, we would 
like to do it before it happens. Thank you.
    Mr. Lockwood. I guess my only point would be that from an 
emergency management standpoint across our Nation, we have 
different-sized offices, different-sized organizations. Some of 
these grant dollars are the only things keeping the doors open. 
I just caution that--trust me, we all know that these are 
difficult times and that we are all doing our best to do more 
with less. But as we have looked at different programs that 
were potentially coming out or cuts to programs, we may find 
ourselves in a situation where the very thing we are looking to 
rely on won't be there if we continue to cut as deep as we are 
cutting.
    So I acknowledge the fact that you guys have a great deal 
of work to do, but I just caution you that at the end of the 
day, the only thing that keeps our lights on in some places are 
some of the minimal funds that we actually do see.
    Sheriff Nocco. From the Sheriff's Office standpoint where 
we are located, I go back to its interoperability; that is our 
No. 1 priority. It is almost like going back to the basics. 
That is a basic fundamental issue in law enforcement is to be 
able communicate because what we are talking about today is a 
worst-case scenario. These are things that we don't even want 
to have nightmares about, but they could come true. However, 
from our standpoint, it is what we deal with every day, the 
disasters that are not to this scale. However, communication 
needs to be there. That is the fundamental core of what we do. 
It is how we operate, and it is how we can be successful. A 
perfect scenario is, the other day I was travelling down the 
road. I was in my vehicle. There was a Florida highway patrol 
trooper next to me, and there was a Tampa police officer in 
front of me. I cannot just pick up my radio and talk to them. 
If a robbery had happened or something had broken loose right 
in front of me, unless they saw it, there is no way we can 
immediately communicate. So I think, from our standpoint, it is 
going back to the basics, and it is communication.
    Mr. Peralta. Mr. Chairman, if possible, whenever you have 
that need, include the letter carriers and Postal Service.
    Mr. Bilirakis. Okay. Well, thank you very much, again. 
Thanks for making the trip and thanks for your patience, again. 
I guess it has been a couple of hours. But again, it was well 
worth it, as far as I am concerned.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the subcommittee 
may have additional questions for you, and we ask that you 
respond in writing. The hearing record will be open for 10 
days. Again, we are always available for any input, any 
suggestions you might have. Without objection, the subcommittee 
stands adjourned. Thanks again.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions Submitted by Chairman Gus M. Bilirakis for James D. Polk
    Question 1a. In response to President Obama's Executive Order on 
medical countermeasure (MCM) distribution, your office has taken the 
lead for the Department of Homeland Security (DHS) on the conops plan 
for mission-essential personnel of the Executive Branch. The Office of 
Health Affairs (OHA) has also spearheaded an MCM strategy for DHS 
employees, and oversees the purchase and storage of MCMs for the DHS 
workforce, which includes stockpiles of countermeasures.
    What is the current process for prioritizing DHS' MCM procurement 
strategy? Is specific threat or risk assessment information utilized in 
procurement decisions?
    Answer. Response was not received at the time of publication.
    Question 1b. Is there a process for OHA to share lessons learned or 
best practices from developing DHS' MCM program with other departments 
and agencies, or with first responders who may be trying to develop 
their own programs?
    Answer. Response was not received at the time of publication.
    Question 2a. The DHS Medical Countermeasures Program is intended to 
contribute to National resilience by ensuring the timely distribution 
of essential medical countermeasures to DHS mission-essential personnel 
in the event of a biological attack. The fiscal year 2013 budget 
requests $1.9 million to fund medications, training, program support, 
and planning activities for this program.
    What proportion of DHS mission-essential personnel is covered by 
currently stockpiled MCMs?
    Answer. Response was not received at the time of publication.
    Question 2b. What portion of the requested $1.9 million is intended 
to replenish expiring lots of existing stocks of MCM, and then to 
acquire new countermeasures?
    Answer. Response was not received at the time of publication.
    Question 2c. What proportion is designated for acquisition of new 
classes of MCMs, such as postassium iodide or influenza antivirals?
    Answer. Response was not received at the time of publication.
    Question 3. What threats should we be thinking of protecting first 
responders against, in addition to anthrax?
    Answer. Response was not received at the time of publication.
    Question 4a. Beyond that which was provided in your testimony, can 
you please provide further details about the voluntary anthrax 
immunization program that your office is developing? Specifically:
    What is the time line for implementation?
    Answer. Response was not received at the time of publication.
    Question 4b. What are the expected outcomes?
    Answer. Response was not received at the time of publication.
    Question 4c. What is the financial arrangement with the localities 
chosen to participate--that is, what costs will they bear, and what 
costs will the Department bear? How much will these costs total?
    Answer. Response was not received at the time of publication.
    Question 4d. If fully implemented beyond the pilot stage, will 
interested participants be able to use Federal grant dollars to 
purchase the vaccine and implement the program?
    Answer. Response was not received at the time of publication.
    Question 5a. A number of first responders expressed concern to the 
committee that Federal grant funding does not apply to medical 
countermeasure acquisition for local stockpiling purposes.
    Can you clarify whether this is actually the case? What exactly 
does the grant guidance say with regard to expenditures of grants on 
medical countermeasures, and which Department of Homeland Security 
grant programs, if any, are applicable for this purpose?
    Answer. Response was not received at the time of publication.
    Question 5b. Has the Office of Health Affairs worked with the 
Federal Emergency Management Agency to provide guidance on the use of 
grant funds for medical countermeasures?
    Answer. Response was not received at the time of publication.
 Questions Submitted by Chairman Gus M. Bilirakis for Edward J. Gabriel
    Question 1. For the purposes of the antibiotic med-kit program that 
the Office of the Assistant Secretary for Preparedness and Response 
(ASPR) is developing, how is the term ``first responder'' defined?
    Answer. Response was not received at the time of publication.
    Question 2a. A number of first responders expressed concern to the 
committee that Federal grant funding does not apply to medical 
countermeasure acquisition for local stockpiling purposes.
    Can you clarify whether this is actually the case? What exactly 
does the grant guidance for relevant Department of Health and Human 
Services grant programs say with regard to expenditures of grants on 
medical countermeasures?
    Answer. Response was not received at the time of publication.
    Question 2b. In BARDA's vision, since the antibiotic med kit for 
first responders would be a commercial kit paid for by the responders, 
and something that States or local jurisdictions would essentially take 
ownership of once Federally approved, will the current grant structure 
allow for the purchase of such supplies through Federal grant dollars?
    Answer. Response was not received at the time of publication.
    Question 3. What is the ASPR's approach to working with the FDA and 
ensuring that the FDA understands that med kits are a first responder 
and an ASPR priority? How will you ensure a successful partnership?
    Answer. Response was not received at the time of publication.
    Question 4. How do you envision that the pre-attack dispensing of 
medical countermeasures to the first responder workforce would be 
tracked? What kind of guidance will your office provide to 
participating localities with regard to tracking who has received what 
medications, incidence of side effects, and related occupational health 
matters?
    Answer. Response was not received at the time of publication.
    Question 5. Beyond antibiotics for anthrax, what do you envision 
med kits for first responders could contain? What threats should we be 
thinking about for first responder protection in addition to anthrax?
    Answer. Response was not received at the time of publication.
    Question 6. How important are rapid, point-of-care diagnostics to 
the first responder community? Is BARDA investing in these? Please 
provide a list of such diagnostics that have been developed and/or 
acquired.
    Answer. Response was not received at the time of publication.
    Question 7. Can you provide a list of countermeasures and vaccines 
in development designed specifically to ensure the continuity of first 
responders, or that are being developed for the general public but 
would have collateral benefit for first responders?
    Answer. Response was not received at the time of publication.
 Questions Submitted by Ranking Member Laura Richardson for Edward J. 
                                Gabriel
    Question 1. What specific plans have been made to protect the 
protectors? Can you provide a list of countermeasures and vaccines in 
development designed specifically to ensure the continuity of emergency 
services?
    Answer. Response was not received at the time of publication.
    Question 2. When can an FDA-approved med kit be distributed to 
emergency services providers?
    Answer. Response was not received at the time of publication.
    Question 3. Following the request from OHA for resources to protect 
the Federal workforce with countermeasures, can HHS specify what 
resources have been deployed to protect local and State responders? 
What plans are in place for this protection?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
